<html>
<title> - EDUCATION REFORMS: EXPLORING THE VITAL ROLE OF CHARTER SCHOOLS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                      EDUCATION REFORMS: EXPLORING
                   THE VITAL ROLE OF CHARTER SCHOOLS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, JUNE 1, 2011

                               __________

                           Serial No. 112-25

                               __________

  Printed for the use of the Committee on Education and the Workforce


                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
66-498                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91f6e1fed1f2e4e2e5f9f4fde1bff2fefcbf">[email&#160;protected]</a>  


                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Dale E. Kildee, Michigan
Judy Biggert, Illinois               Donald M. Payne, New Jersey
Todd Russell Platts, Pennsylvania    Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Bob Goodlatte, Virginia              Lynn C. Woolsey, California
Duncan Hunter, California            Ruben Hinojosa, Texas
David P. Roe, Tennessee              Carolyn McCarthy, New York
Glenn Thompson, Pennsylvania         John F. Tierney, Massachusetts
Tim Walberg, Michigan                Dennis J. Kucinich, Ohio
Scott DesJarlais, Tennessee          David Wu, Oregon
Richard L. Hanna, New York           Rush D. Holt, New Jersey
Todd Rokita, Indiana                 Susan A. Davis, California
Larry Bucshon, Indiana               Raul M. Grijalva, Arizona
Trey Gowdy, South Carolina           Timothy H. Bishop, New York
Lou Barletta, Pennsylvania           David Loebsack, Iowa
Kristi L. Noem, South Dakota         Mazie K. Hirono, Hawaii
Martha Roby, Alabama
Joseph J. Heck, Nevada
Dennis A. Ross, Florida
Mike Kelly, Pennsylvania

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                  DUNCAN HUNTER, California, Chairman

John Kline, Minnesota                Dale E. Kildee, Michigan
Thomas E. Petri, Wisconsin             Ranking Minority Member
Judy Biggert, Illinois               Donald M. Payne, New Jersey
Todd Russell Platts, Pennsylvania    Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Bob Goodlatte, Virginia              Carolyn McCarthy, New York
Richard L. Hanna, New York           Rush D. Holt, New Jersey
Lou Barletta, Pennsylvania           Susan A. Davis, California
Kristi L. Noem, South Dakota         Raul M. Grijalva, Arizona
Martha Roby, Alabama                 Mazie K. Hirono, Hawaii
Mike Kelly, Pennsylvania             Lynn C. Woolsey, California


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 1, 2011.....................................     1

Statement of Members:
    Hirono, Hon. Mazie K., a Representative in Congress from the 
      State of Hawaii, prepared statement of.....................    54
    Hunter, Hon. Duncan, Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     1
        Prepared statement of....................................     3
    Kildee, Hon. Dale E., ranking member, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Beyer, Debbie, executive director, Literacy First Charter 
      Schools....................................................    12
        Prepared statement of....................................    15
    Miron, Dr. Gary, professor of evaluation, measurement, and 
      research, Western Michigan University......................    18
        Prepared statement of....................................    19
    Purvis, Elizabeth Delaney, executive director, Chicago 
      International Charter School...............................    23
        Prepared statement of....................................    25
    Rowe, DeAnna, executive director, Arizona State Board for 
      Charter Schools............................................     7
        Prepared statement of....................................     8

Additional Submissions:
    Ms. Hirono, articles written by Susan Essoyan, Star 
      Advertiser, submitted for the record:
        ``Experiments in education reap widely varying results,'' 
          May 22, 2011...........................................    55
        ``Institution founded on choice produces strong test 
          scores, May 22, 2011...................................    57
        ``Once-struggling campus makes educational U-turn,'' May 
          22, 2011...............................................    58
        ``Former private school finds some success in transition 
          to public Waldorf education, May 23, 2011..............    59
        ``State's fastest-growing charter maintains individual 
          attention for each of its students, May 23, 2011.......    60
        ``Close ties color boards' decisions, May 24, 2011.......    61
        ``Legislation seeks to shed light on operations and 
          spending, May 24, 2011.................................    63
        ``With stable teaching staff and financial aid, Waianae 
          school is model for student success, May 24, 2011......    64
    Mr. Kildee, reports submitted for the record:
        ``Equal or Fair? A Study of Revenues and Expenditures in 
          American Charter Schools,'' Internet address to........    54
        ``Profiles of For-Profit Education Management 
          Organizations, Twelfth Annual Report--2009-2010,'' 
          Internet address to....................................    54
        ``What Makes KIPP Work? A Study of Student 
          Characteristics, Attrition, and School Finance,'' 
          Internet address to....................................    54
        ``Profiles of Nonprofit Education Management 
          Organizations,'' Internet address to...................    54
    Scott, Hon. Robert C. ``Bobby,'' a Representative in Congress 
      from the State of Virginia, reports submitted for the 
      record:
        ``Multiple Choice: Charter School Performance in 16 
          States,'' Internet address to..........................    47
        ``Choice Without Equity: Charter School Segregation and 
          the Need for Civil Rights Standards,'' Internet address 
          to.....................................................    47
        ``Schools Without Diversity: Education Management 
          Organizations, Charter Schools, and the Demographic 
          Stratification of the American School System,'' 
          Internet address to....................................    47


     EDUCATION REFORMS: EXPLORING THE VITAL ROLE OF CHARTER SCHOOLS

                              ----------                              


                        Wednesday, June 1, 2011

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 12:06 p.m., in 
room 2175, Rayburn House Office Building, Hon. Duncan Hunter 
[chairman of the subcommittee] presiding.
    Present: Representatives Hunter, Kline, Petri, Biggert, 
Foxx, Roby, Kildee, Payne, Scott, Holt, Davis, Grijalva, 
Hirono, and Woolsey.
    Also present: Representatives Miller and Polis.
    Staff present: Katherine Bathgate, Press Assistant/New 
Media Coordinator; James Bergeron, Director of Education and 
Human Services Policy; Casey Buboltz, Coalitions and Member 
Services Coordinator; Heather Couri, Deputy Director of 
Education and Human Services Policy; Daniela Garcia, 
Professional Staff Member; Barrett Karr, Staff Director; 
Rosemary Lahasky, Professional Staff Member; Brian Melnyk, 
Legislative Assistant; Krisann Pearce, General Counsel; Mandy 
Schaumburg, Education and Human Services Oversight Counsel; Dan 
Shorts, Legislative Assistant; Alex Sollberger, Communications 
Director; Linda Stevens, Chief Clerk/Assistant to the General 
Counsel; Alissa Strawcutter, Deputy Clerk; Tylease Alli, 
Minority Clerk; Daniel Brown, Minority Junior Legislative 
Assistant; Jody Calemine, Minority Staff Director; Jamie 
Fasteau, Minority Deputy Director of Education Policy; Brian 
Levin, Minority New Media Press Assistant; Kara Marchione, 
Minority Senior Education Policy Advisor; Helen Pajcic, 
Minority Education Policy Advisor; Julie Peller, Minority 
Deputy Staff Director; Melissa Salmanowitz, Minority 
Communications Director for Education; and Laura Schifter, 
Minority Senior Education and Disability Policy Advisor.
    Chairman Hunter. A quorum being present, the subcommittee 
will come to order.
    Good morning and welcome to our witnesses. Thank you for 
being here. We appreciate you taking the time to join us.
    Today we will review the important role charter schools 
play in the nation's education system.
    As you may know, charter schools are public schools created 
through a contract with state agencies or local school 
districts. The contract affords a school more flexibility to 
meet the unique education needs of students. And in exchange 
for this freedom, charter schools are held accountable for 
parents and communities for achieving the goals set out in 
their charter.
    Republicans on this committee have been strong proponents 
of charter schools for many years as we recognize the 
opportunities they offer for parents and students.
    Charter schools empower parents to play a more active role 
in their child's education and offer students a priceless 
opportunity to escape underperforming schools.
    These innovative institutions also open doors for teachers 
to experiment with fresh teaching methods and curricula that 
they believe will have the greatest positive impact on students 
in their individual community.
    Charter schools have a proven track record for success, 
encouraging higher academic achievement in even the most 
troubled school districts.
    For example, a Louisiana charter school established in the 
wake of Hurricane Katrina enrolled many students who had fallen 
significantly behind other students their age after the 
disaster forced them to miss a full year of school. Despite 
these difficult circumstances, dedicated teachers tailored 
groundbreaking course work to meet the needs of those students.
    As a result, student achievement levels soared and this 
charter school is now the third most successful high school in 
New Orleans.
    Other areas of the U.S. could greatly benefit from the 
launch of similar high quality charter schools. Take Detroit 
which has closed 59 schools and cut 30 percent of the school 
system's workforce in the last 2 years due to enormous budget 
shortfalls.
    Parents and students in Detroit are desperate for new 
education opportunities, and that is why the city is now 
exploring a plan to convert as many as 45 traditional public 
schools into charter schools.
    As we work to improve the nation's education system, and 
raise student achievement levels, much can be gained from 
expanding access to high quality charter schools. Unfortunately 
barriers to charter school growth exist in the form of state 
caps, limited authorizers, and hostile state legislatures.
    Efforts must be undertaken to streamline charter school 
funding and reduce unnecessary bureaucracy at the federal 
level. We must also explore ways to help states and authorizers 
support charter schools in meeting high quality standards and 
provide incentives for states that encourage the establishment 
of charter schools.
    Today's witnesses--excuse me. Today's witness testimony 
will be very valuable as we develop proposals to support the 
development of high quality charter schools in communities 
across the country.
    I look forward to gaining our witnesses' perspectives on 
the successes and challenges facing charter schools, and 
learning what must be done so that more families and students 
can benefit from these groundbreaking institutions.
    I would now like to recognize the ranking member, Mr. Dale 
Kildee, for his opening remarks.
    [The statement of Mr. Hunter follows:]

  Prepared Statement of Hon. Duncan Hunter, Chairman, Subcommittee on 
          Early Childhood, Elementary and Secondary Education

    Today we will review the important role charter schools play in the 
nation's education system. As you may know, charter schools are public 
schools created through a contract with state agencies or local school 
districts. The contract affords the school more flexibility to meet the 
unique education needs of students, and in exchange for this freedom, 
charter schools are held accountable to parents and communities for 
achieving the goals set out in the charter.
    Republicans on this committee have been strong proponents of 
charter schools for many years, as we recognize the opportunities they 
offer parents and students. Charter schools empower parents to play a 
more active role in their child's education, and offer students a 
priceless opportunity to escape underperforming schools. These 
innovative institutions also open doors for teachers to experiment with 
fresh teaching methods and curricula that they believe will have the 
greatest positive impact on students in their individual community.
    Charter schools have a proven track record for success, encouraging 
higher academic achievement in even the most troubled school districts. 
For example, a Louisiana charter school established in the wake of 
Hurricane Katrina enrolled many students who had fallen significantly 
behind other students their age after the disaster forced them to miss 
a full year of school. Despite these difficult circumstances, dedicated 
teachers tailored ground-breaking coursework to meet the needs of these 
students. As a result, student achievement levels soared and this 
charter school is now the third most successful high school in New 
Orleans.
    Other areas of the U.S. could greatly benefit from the launch of 
similar high quality charter schools. Take Detroit, which has closed 59 
schools and cut 30 percent of the school system's workforce in the last 
two years due to enormous budget shortfalls. Parents and students in 
Detroit are desperate for new education opportunities, and that's why 
the city is now exploring a plan to convert as many as 45 traditional 
public schools into charter schools.
    As we work to improve the nation's education system and raise 
student achievement levels, much can be gained from expanding access to 
high quality charter schools. Unfortunately, barriers to charter school 
growth exist in the form of state caps, limited authorizers, and 
hostile state legislatures. Efforts must be undertaken to streamline 
charter school funding and reduce unnecessary bureaucracy at the 
federal level. We must also explore ways to help states and authorizers 
support charter schools in meeting high quality standards, and provide 
incentives for states that encourage the establishment of charter 
schools.
    Today's witness testimony will be very valuable as we develop 
proposals to support the development of high quality charter schools in 
communities across the country. I look forward to gaining our 
witnesses' perspectives on the successes and challenges facing charter 
schools, and learning what must be done so more families and students 
can benefit from these ground-breaking institutions.
                                 ______
                                 
    Mr. Kildee. Thank you very much, Mr. Chairman.
    I also want to thank our distinguished witness panel for 
their participation in today's hearing.
    I believe we have a great deal to learn about the potential 
benefits and challenges of charter schools, and how they can be 
a part of education reform.
    I hope your insights bring us closer to our goal of 
providing a high quality education for all students.
    While the American education system is one of the best in 
the world, the status quo is no longer acceptable. We must 
prepare our students to compete in the global economy.
    The top 10 percent of American students are competitive 
with our peers internationally. But we fall flat when it comes 
to educating our poor and minority students. The persistent 
achievement gap is a threat to our country's competitive 
fitness, our economy, and our national security.
    Furthermore, there is a moral imperative to do better by 
our needier students. Higher standards and better assessments 
will help. But we must push the envelope with innovative 
strategies for reform.
    Charter schools were originally intended to be a new form 
of public school that would develop and share innovative 
practices, and promote competition leading to improvements 
among the traditional public schools as well.
    While the original goals of charter schools hold promise, 
they must be held accountable for their performance and work. 
And work collaboratively with other public schools to improve 
the high quality educational options available to all students.
    And very often one rarely sees that collaboration between 
the charter schools in a community and a school three blocks 
away which is a traditional public school.
    I watched too many bad--if I may use that word--charter 
schools divert resources from the traditional public school 
system only to finish the school year with students farther 
behind. Charter schools are public schools and must be held 
accountable as such.
    Innovative cannot occur without proper oversight. And I 
will push for policies that hold these schools accountable for 
performance.
    I am also concerned that charter schools all too often fail 
to serve a representative sample of the student population. 
Charter schools are not a real choice for most families around 
the country. They operate in only 40 states and are often 
located solely in urban school districts.
    Where they do operate, their effectiveness is often 
unclear. The performance of charter schools varies tremendously 
with predominantly--showing in their studies that overall 
charter schools performed no better or worse than traditional 
public schools.
    Even when charter schools are improving student outcomes, 
too often they do not provide services to those students most 
in need. As we explore strategies for comprehensive school 
reform, we should never lose sight of our commitment to equal 
access for all students.
    I look forward to a productive discussion about these 
important issues during today's hearing so we can move forward 
with solutions acceptable to all.
    And I want to thank the chairman for calling today's 
hearing, and look forward to the discussion.
    I yield back the balance of my time.
    [The statement of Mr. Kildee follows:]

Prepared Statement of Hon. Dale E. Kildee, Ranking Member, Subcommittee 
         on Early Childhood, Elementary and Secondary Education

    Thank you Mr. Chairman.
    I also want to thank our distinguished witness panel for their 
participation in today's hearing. I believe we have a great deal to 
learn about the potential benefits and challenges of charter schools 
and how they can be a part of education reform. I hope your insights 
bring us closer to our goal of providing a high quality education for 
all students.
    While the American education system is one of the best in the 
world, the status quo is no longer acceptable. We must prepare our 
students to compete in the global economy.
    The top 10 percent of American students are competitive with our 
peers internationally, but we fall flat when it comes to educating our 
poor and minority students. The persisting achievement gap is a threat 
to our country's competitiveness, our economy, and our national 
security.
    Furthermore, there is a moral imperative to do better by our 
neediest students. Higher standards and better assessments will help, 
but we must push the envelope with innovative strategies for reform.
    Charter schools were originally intended to be a new form of public 
school that would develop and share innovative practices, and promote 
competition, leading to improvements among traditional public schools, 
as well.
    While the original goals of Charter schools hold promise, they must 
be held accountable for their performance and work collaboratively with 
other public schools to improve the high-quality educational options 
available to all students.
    I have watched too many bad charter schools divert resources from 
the traditional public school system only to finish the school year 
with students farther behind.
    Charter schools are public schools and must be held accountable as 
such. Innovation cannot occur without proper oversight, and I will push 
for policies that hold these schools accountable for performance.
    I am also concerned that charter schools all too often fail to 
serve a representative sample of the student population.
    Charter schools are not real choice for most families around the 
country. They operate in only 40 states and are often located solely in 
urban school districts.
    Where they do operate, their effectiveness is often unclear. The 
performance of charter schools varies tremendously, with predominating 
studies showing that, overall, charter schools perform no better or 
worse than traditional public schools.
    Even when charter schools are improving student outcomes, too often 
they do not provide services to those students most in need. As we 
explore strategies for comprehensive school reform, we should never 
lose sight of our commitment to equal access for all students.
    I look forward to a productive discussion about these important 
issues during today's hearing so we can move forward with solutions 
acceptable to all.
    I want to thank the Chairman for calling today's hearing, and look 
forward to the discussion.
                                 ______
                                 
    Chairman Hunter. I thank the ranking member.
    I would also like to recognize Mr. Polis from Colorado who 
is here today. He is a big proponent of charter schools and 
interested in today's debate.
    Now pursuant to committee Rule 7C, all subcommittee members 
will be permitted to submit written statements to be included 
in the permanent hearing record.
    And without objection, the hearing record will remain open 
for 14 days to allow statements, questions for the record, and 
other extraneous material referenced during the hearing to be 
submitted in the official hearing record.
    It is now my pleasure to introduce our distinguished panel 
of witnesses.
    Ms. DeAnna Rowe first--was named executive director of the 
Arizona State Board for Charter Schools, an independent state 
agency with the statutory responsibility to authorize new 
charter schools and oversee existing charter schools in 2007.
    Previously, she served as director of academic affairs for 
the Arizona State Board of Charter Schools.
    Ms. Rowe began her career as an employment coordinator for 
Valley Temporary Services from 1986 to 1990. She went on to 
serve as manager at Franklin Printing and Office Supply from 
1990 to 1992.
    Her work in the public school system started as a high 
school teacher in the Peoria, Illinois Unified School District 
from 1992 to 1997. There, she focused on the design and 
implementation of an integrated academics program which 
emphasized both workplace and academic skills.
    In 1997, she co-founded Career Pathways Academy and served 
as co-director until 2001.
    Thank you for joining us today.
    And Ms. Debbie Beyer is next, and a friend of mine. One of 
the many schools that I visited was hers in San Diego.
    Debbie, thanks for coming all the way out here.
    She currently serves as executive director and principal of 
Literacy First Charter Schools which she founded in 2001. She 
began her career in education as a kindergarten teacher, was a 
high school Spanish teacher, and served as a director and 
developer of home education programs.
    Ms. Beyer also started Del Rey Schools, a home schooling 
program that provides support services and accountability for 
families that choose to home school, serving as director and 
developer of the organization.
    Next is Dr. Gary Miron. He is a principal research 
associate at Western Michigan University's Evaluation Center.
    There, he works on a variety of school reform evaluations 
including the evaluations of charter schools in Michigan, 
Pennsylvania, Connecticut, Illinois, and Cleveland.
    He has researched and written on topics such as educational 
evaluations, special needs education, educational planning and 
policy, multi-method research, charter schools, and school 
reform.
    Dr. Miron worked at Stockholm University where he completed 
his graduate studies.
    And last, Dr. Beth Purvis.
    She began her career as a teacher of the blind and visually 
impaired in Montgomery County, Maryland Public School systems 
from 1988 to 1993. From 1995 to 1998, she was an early 
childhood special educator for Tennessee's Early Intervention 
System.
    In 1998, she went on to serve as an assistant professor of 
special education and the associate director of the UIC Child 
and Family Development Center at the University of Illinois at 
Chicago.
    She is the executive director of the Chicago International 
Charter School, and currently serves on the boards of the 
Illinois Network of Charter Schools, the Illinois State 
Advisory Council, the Illinois State Board of Education, and 
the Education Subcommittee of the Chicago Urban League.
    She has served on the editorial review board of two peer 
review professional journals, has published and presented 
numerous papers, and has been awarded various grants in her 
field.
    Thank you all for joining us.
    Before I recognize each of you to provide your testimony, 
let me briefly explain the lighting system.
    You will each have 5 minutes to present your testimony. 
When you begin the light in front of you will be green. When 1 
minute is left it will turn yellow. And then when that minute 
is up, it would turn red at that point.
    Please try to wrap up your point at that point in time.
    After everyone has testified, members will each have 5 
minutes to ask questions of the panel.
    I would now like to recognize Ms. Rowe for 5 minutes.

  STATEMENT OF DEANNA ROWE, EXECUTIVE DIRECTOR, ARIZONA STATE 
                   BOARD FOR CHARTER SCHOOLS

    Ms. Rowe. Good afternoon Chairman Hunter, Ranking Member 
Kildee, and members of the subcommittee.
    I am DeAnna Rowe, the executive director of the Arizona 
State Board for Charter Schools. And I am pleased to be here 
today to participate in your discussion.
    I have been involved in charter schools in Arizona almost 
since their inception, first as a charter school operator, and 
for the last 10 years as a member of the Charter Board staff.
    As an Arizona native, I have been witness to a great deal 
of progress in Arizona's public education system. And much of 
it can be attributed to both charter schools and the work of 
the Charter Board.
    We now have over 500 charter schools serving over 123,000 
students in--across our state. In Arizona, we have a charter 
school law that provides for autonomy in charter school 
operations and includes flexibility within their organizational 
structures.
    With the variety of ownership and management structures, as 
well as variations in government, Arizona has a rich collection 
of operations that produce some of the strongest charter 
schools in the nation.
    These programs offer a variety of instruction and--which 
are often not found in traditional public schools.
    With a strong charter school law that establishes a solid 
foundation from which an authorizer can grant charters, it is 
incumbent upon the Charter Board as an authorizer to create a 
portfolio of quality charter schools from which families are 
able to make educational choices based on programs that are 
considered the best fit for their children.
    In its most recent strategic planning process, the Board's 
strategic planning team focused on ensuring its policies moving 
forward: to continue to provide a fair and transparent means to 
measure each schools' academic performance, and to close 
schools that aren't making academic gains.
    And it is the evaluation process that I will focus on for 
the rest of my time with you today because as you will see, it 
is this process that started with charter schools that will 
soon play a vital role in measuring the success of all Arizona 
public schools.
    In evaluating school performance for 5-year interval 
reviews, in consideration of expansion, and in making renewal 
decisions, the Charter Board looks at a combination of 
individual student level data of the Arizona growth model and 
raw test score data.
    Multiple years of data, when plotted over time, create a 
visual representation of each school showing on an annual basis 
the percent of students passing the state test and how fast its 
school is catching up its struggling students.
    Examples of the graphs have been included in the appendix, 
and demonstrate how the Charter Board can utilize data to make 
high stakes decisions based on the school's academic 
performance.
    The Arizona growth model is a replication of a Colorado 
growth model. And its implementation in Arizona must be 
credited to the Arizona Charter Schools Association.
    The Charter Association explored, and the Charter Board's 
subsequent adoption of this model were made possible through a 
U.S. Department of Education grant titled, Building Charter 
School Quality.
    The Charter Board pioneered the use of the growth model 
which now has gained general acceptance across the state as a 
means to measure student achievement. Administrators in both 
charter schools and district schools have access to growth 
model data and professional development regarding the use of 
the data through the Charter Association.
    Recently, the State Board of Education explored the most 
appropriate means to calculate the state's new system for 
identifying school academic performance. And it too evaluated 
the growth model.
    At its May meeting, the Arizona State Board of Education 
finalized the new Arizona Learns formula, incorporating the use 
of the growth model to measure the academic performance of all 
public schools in Arizona.
    A change in the way public schools are evaluated is an 
explicit and notable example of how the inclusion of charter 
schools in Arizona's education system has contributed to 
improving public education in Arizona.
    There are other examples as well. Charter schools, through 
their provision of varied and innovative quality academic 
programs, are having an impact on the decisions made at the 
local school district.
    Districts, in their continuous efforts to provide 
educational opportunities for their families, have devoted 
resources to researching charter school operations and what 
makes charter schools the choice of parents.
    The best practices and programs of instruction found to be 
effective in our charter schools are now being implemented at 
the district schools as well, further expanding quality 
opportunity for all of our students.
    Charter schools provide a range of benefits for students 
and their families in Arizona. Not only do the schools provide 
an alternative for families seeking to find an environment that 
will allow each student to reach his or her full potential, but 
they have proven to be a tremendous source of innovation, 
providing all schools with the tools and methods of improving 
student achievement.
    Because of strong, progressive charter school legislation, 
charter schools in Arizona are not a threat to the public 
education, but rather an integral part of the complex system 
that is rapidly adapting to meet the needs of the Arizona 
students.
    Thank you for the opportunity today.
    [The statement of Ms. Rowe follows:]

         Prepared Statement of DeAnna Rowe, Executive Director,
                Arizona State Board for Charter Schools

    Good afternoon, Chairman Hunter, Congressman Kildee, and members of 
the Subcommittee. I am DeAnna Rowe, Executive Director of the Arizona 
State Board for Charter Schools and I am pleased to be here today to 
contribute to your discussion of the vital role that charter schools 
play in education.
    Charter schools provide options for families that want the benefits 
of a public education for their children but desire the ability to 
select an instructional model and educational environment where they 
believe their students will thrive. The presence of charter schools in 
the American education landscape provides a level of competition that 
works to increase school quality while at the same time increasing the 
accountability measures for all public schools. If the desired end in 
public school reform is improved educational results for all children, 
then charter schools play an important role in this common goal for 
quality public schools.
    In my capacity as the executive director of the Arizona State Board 
for Charter Schools (``Charter Board''), I'd like to share my 
perspective of how an authorizer creates and monitors the performance 
of charter schools to ensure their quality which is vital to our 
pursuit to improve public education in Arizona.
    As an authorizer in Arizona, I have the pleasure of working within 
a charter school law that:
    1) Supports the creation of various educational opportunities 
without boundaries for operations; we have charter schools in 14 of our 
15 counties
    2) Does not restrict the number of charter schools that can operate 
or limit the enrollment at its schools; we have 385 charter holders in 
Arizona operating 512 charter schools serving 123,633 students. This 
translates to one in every 4 public schools in Arizona being a charter 
school serving 12% of the Arizona's public education population.
    3) Provides for autonomy in charter school operations and includes 
flexibility within their organizational structures. The law provides 
for authorizers to contract with a public body, private person, or 
private organization. This variety in ownership and management 
structures, as well as variations in governance, creates a rich 
collection of operations that produce some of the strongest charter 
schools in the nation. This flexibility of structures also allows 
charter holders to respond quickly to educational needs. The inclusion 
of the private sector provides opportunities for the active involvement 
of individuals outside the traditional educational arena and 
incorporates an additional skill set in the development of 
instructional programs and operations of the school.
    4) Provides exemptions from many state laws and district 
regulations. Charter holders use these exemptions to implement 
instructional programs such as Montessori, Expeditionary Learning, back 
to basics and performing arts focused schools which are not often found 
in the traditional public schools. The law allows for charter schools 
to act as incubators for innovation, creating schools that are 
responsive to community needs and current educational research.
    With a strong charter school law that establishes a solid 
foundation from which an authorizer can grant charters and hold schools 
accountable to quality performance standards, it is incumbent upon the 
Board, as an authorizer, to grant charters to applicants that 
demonstrate a quality educational program that is supported by a sound 
business plan which will be managed by individuals or entities that 
demonstrate the capacity to effectively utilize state resources. By 
doing so, it creates a vast array of choices for families from which 
educational decisions can then be made based upon program choices that 
are considered the best fit for the children, school locations, and 
other factors deemed important to the family.
    Over 15 years of authorizing, the Charter Board has experienced 
many iterations of the ``new charter application,'' each one 
considering lessons learned and improving on past versions in an effort 
to capture the key components that will ensure the establishment of an 
additional quality charter school option when approved. As in much of 
its work, the Charter Board has utilized the National Association of 
Charter School Authorizer's Principles & Standards as a resource and a 
guide in improving its practices.
    In its endeavor to provide quality choices, the Charter Board has 
also established replication criteria which, when met, provide a 
successful charter holder a streamlined process to open additional 
schools. Replication has been an efficient process for expanding the 
number of quality choices available to families.
    With the receipt of Federal Charter School Program Funds in 2009, 
the Arizona Department of Education established the Arizona Charter 
Schools Incentive Program to support the start-up of new, high-quality 
charter schools in Arizona over the next five years. This program is 
focused on creating schools in urban and rural areas that will serve 
students at risk of not succeeding. Because these sub-grants encourage 
replication of quality schools, there has been an increase in the 
number of replication applications submitted to and approved by the 
Charter Board. After two years, early results are showing that the 
increased funding to support these schools in planning and 
implementation is yielding significant academic gains.
    An authorizer's role in conducting ongoing oversight to evaluate 
performance and monitor compliance is the means to the desired end 
result--a portfolio of quality schools. In its efforts to assure that 
all approved charter schools provide a learning environment that 
improves pupil achievement, in accordance with the law, the Charter 
Board has created a level of oversight that holds schools accountable 
to quality standards while protecting their autonomy which ensures the 
flexibility and independence of their operational practices which is 
instrumental to their success.
    In evaluating the charter school's efforts to maintain quality 
standards of operation, the Charter Board considers the following: 
First, the success of the academic program, including academic 
achievement; next, the viability of the organization, including fiscal 
management and compliance, and finally, the charter holder's adherence 
to the terms of the charter.
    As with its new application, the Charter Board's oversight 
processes have continued to be refined. Keeping ``fair and 
transparent'' as well as ``autonomy for performance'' at the forefront 
of the development of all policy, the Charter Board recently revised 
its oversight processes placing academic performance at its core. The 
Charter Board established a Level of Adequate Academic Performance 
(LAAP) that provides a means to measure academic improvement from one 
year to the next, replacing its use of the State's academic 
accountability system which provided a means to monitor school 
performance by way of a performance label.
    The LAAP is based on a combination of individual student level 
growth (Arizona Growth Model) and raw test score data to determine 
whether schools are teaching kids what they need to know and how fast 
the school is ``catching up'' its struggling students. The analysis of 
the data and development of the Arizona Growth Model must be credited 
to the Arizona Charter Schools Association (``Charter Association''). 
The Arizona growth model is a replication of the Colorado growth model, 
developed by Damian Betebenner of the National Center for Assessment, 
and used for state-wide accountability. In addition to Colorado, 
Massachusetts has also adopted this growth model for its statewide 
system. The Charter Association's exploration and the Charter Board's 
adoption of this model were made possible through the US Department of 
Education's National Leadership Grant titled ``Building Charter School 
Quality''.
    In evaluating school performance for five-year interval reviews, in 
consideration of requests for expansion, and in making renewal 
decisions, the Charter Board looks at graphs that contain multiple 
years of data over time instead of a single point in time. Examples of 
the graphs have been included in the Appendix. When viewed over 
multiple years, policy-makers and parents can identify schools that are 
consistently strong in growing their student's level of knowledge, or 
those that are consistently weak.
    The Charter Board pioneered the use of the growth model which has 
now gained general acceptance across the state as a means to measure 
student achievement. The Charter Association has provided 
administrators in both charter schools and public school districts with 
access to data and professional development regarding the use of the 
Growth Model to evaluate student achievement. Administrators were 
trained to interpret the growth model data and make informed 
instructional decisions. Recently, as the State Board of Education 
explored the most appropriate means to calculate the State's new system 
for identifying school academic performance, it too evaluated the 
growth model. During its May meeting, the State Board of Education 
finalized the new AZ LEARNS formula incorporating the use of the Growth 
Model to measure academic performance of all public schools in Arizona.
    A change in the way public schools are evaluated is an explicit and 
notable example of how the inclusion of charter schools in Arizona's 
education system has contributed to improving public education in 
Arizona. There are other examples as well. Charter schools, through 
their provision of varied and innovative quality academic programs are 
having an impact on the decisions made at the local school level. 
Districts, in their continuous effort to provide the best educational 
opportunities for their families, have devoted resources to researching 
charter school operations and what makes charter schools attractive to 
parents. The best practices and programs of instruction found to be 
effective in our charter schools are now being implemented in district 
schools as well, further expanding quality opportunities for all 
students.
    Charter schools provide a range of benefits for students and their 
families in Arizona. Not only do the schools provide an alternative for 
families to find the environment that will allow each student to reach 
his or her full potential, but they have proven to be a tremendous 
source of innovation, providing all schools with new tools and methods 
of improving student achievements. Charter schools have also proven to 
be role models for districts around the state. They have presented 
alternative instructional and organizational models that districts can 
use to improve the education for all children.
    Because of strong, progressive charter school legislation, charter 
schools in Arizona are not a threat to public education but rather an 
integral part of a complex system that is rapidly adapting to meet the 
needs of all children.
    Thank you, again, for the opportunity to present this information 
to you today. I am happy to provide the Subcommittee with additional 
information that it may deem necessary or helpful, and to answer any 
questions from the members.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Chairman Hunter. Okay, thank you, Ms. Rowe. And thanks for 
being--just about right on time.
    Now, I would like to recognize Ms. Beyer for 5 minutes.

 STATEMENT OF DEBBIE BEYER, EXECUTIVE DIRECTOR, LITERACY FIRST 
                        CHARTER SCHOOLS

    Ms. Beyer. Chairman Hunter, Mr. Kildee, and esteemed 
members, the controversy over how and what is the best way to 
educate the future of our country has been a raging debate 
since back in the 1980s when Reagan's Nation at Risk Report 
came out.
    While there are many factors that contribute to the success 
or failure of American students in school, the report of 
yesteryear was clear to indicate that parental involvement was 
the number one indicator for student success.
    Now some 30 years later that fact remains a common 
denominator when looking at students that seem to achieve 
academic success and those that we continue to call at risk.
    In 1992, California was the second state, after Minnesota 
in 1991, to pass charter school legislation. That was the 
genesis of the Charter Schools Act of 1995. To date, 39 states 
and the District of Columbia have charter legislation.
    The goal of this movement would be to provide options for 
families that beforehand had none and poor underperforming 
schools.
    A system that would provide parents choice regardless of 
geographical or district boundaries, provide teachers the 
opportunity to develop innovative and resourceful programs, 
provide for research proven methods and programs to be 
implemented, and develop communities that would embrace and own 
the learning of their children.
    While there are many public schools doing great things for 
our children, the data is telling us that there are not enough 
of them. And for those seeking change, it is not happening fast 
enough. And our children deserve better.
    To be realistic about what is necessary for students to be 
successfully educated and to be ready for a global marketplace, 
it would seem imperative that the paradigm shifts from the one 
size fits all to a buffet of opportunities. Charter schools 
have begun--have been the beginning of this change.
    As for my own personal experience with charter schools, 10 
years ago Literacy First began as a little start-up school in 
East San Diego County with 114 little boys and girls, 
kindergarten through third grade.
    It was a giant dream and the most difficult endeavor I have 
ever encountered. Now 10 years down the road, with four school 
sites, 1,200 plus students, and more than the rusty old desk 
and tables that we began with, Literacy First has spun that 
dream of years past into an incredible place where the tenets 
upon which charters were enabled happen daily.
    Parents do have choice. Teachers are developing innovative 
and resourceful programs. Research proven materials and methods 
are being used daily. And a community has developed that owns 
and embraces the learning of their children.
    While we began with a team of just six, after 10 years, 
that team has grown to almost 130. You might also note that 
there is this myth that exists that charters don't do special 
populations.
    At Literacy First, we have a very diverse student 
population which includes almost one-third of our students 
being English language learners. The majority of whom are from 
Iraq. And our special education population is about 13 percent, 
where the average in our area is--of a typical school is 10 
percent.
    Despite those numbers, we have some of the highest test 
scores in the entire county. Although we opened up a new school 
this past fall, we continue to have a waiting list of over 800.
    ``Waiting for Superman'' is not an urban legend. We live it 
every day at Literacy First.
    While not every charter school operates as we do, some of 
the distinctions that our school has that are important factors 
to note are our school calendar, our longer day, and longer 
school year.
    We have tried to do what research says works and that is 
more time on task and more time in school. We know that schools 
in our area have changed their behavior in an effort to compete 
with what we are offering.
    We think that is great. In every other area of our lives as 
Americans, we view competition as a good thing. Why not in 
education?
    In addition, we do not have tenure at Literacy First. Our 
teachers understand that they are competing for their jobs 
every day by way of accountability. They hear me often say, we 
serve at the pleasure of the taxpayer.
    We recognize that we cannot compete with the traditional 
union-owned public schools' pay scale. So we have a merit pay 
system. This merit pay applies to everyone from the 
housekeeping staff to me, the executive director.
    Additionally, we have what is called an above and beyond 
program. This pay incentive is an option for any staff that 
chooses to be entrepreneurial in developing a new program, 
heading a committee, or a variety of innovative options that 
could be endless.
    Their regular salary is for an outstanding job, not a 
mediocre one. And the end of that, not only are our students 
served more effectively, but our staff is invested in the 
mission of what we are doing and intent on individual student 
success.
    According to the Center for Education Reform, this fall 
there will be almost 5,500 charter schools nationwide serving 
1.7 million students with the goal being to meet the needs of 
our children more effectively.
    In my state of California, there are 912 charters, with 115 
of those just opening this past fall. We serve 365,000 
students.
    These are public schools, publicly funded, making a huge 
impact on closing the achievement gap and giving hope to many 
that previously have felt abandoned by underperforming schools 
with no way out.
    Like most movements that go against the status quo, 
developing the charter is not an easy task. However, despite 
challenges in growth and in funding and facilities, charters 
are proving themselves to be resilient.
    Parents have recognized that choice is a great option. It 
gives back power to the people in very real, tangible, and 
powerful ways.
    Charters are providing a much needed sense of relief to a 
system that has been unresponsive for decades.
    As for Literacy First, there are so many good things going 
on at our school, it is hard to put it into 3 minutes or 30 
minutes for that matter.
    However as the founder--I am executive director for 
Literacy First. Let me say that this is a place where we 
recognize that what we are doing is more than teaching content. 
It is about training the future of America.
    It is about bringing families together in a process and 
partnering with them in these difficult times. It is a place 
where character counts, where parents matter, where teachers 
care. And because of that, children thrive.
    Thanks so much for letting me come and share our experience 
with you and this movement today.
    [The statement of Ms. Beyer follows:]

        Prepared Statement of Debbie Beyer, Executive Director,
                     Literacy First Charter Schools

    Chairman Hunter, Mr. Kildee and Esteemed Members: Among the few 
subjects that can get a group in serious debate quickly, how we as 
Americans view education is one of them. The controversy over how and 
what is the best way to educate the future of our country has been a 
raging debate since back in the 80' when Reagan's first report came in 
the Nation at Risk Report. I recall as a young new idealistic teacher 
being concerned then at the ``not so good'' news regarding our American 
way of education. While there were many factors that contribute to the 
success or failure of American students in school, that report of 
yesteryear was clear to indicate that ``parental involvement'' was the 
number one indicator of student success. Now, some 30 years later, that 
fact remains a common denominator when looking at students that seem to 
achieve academic success and those that we continue to call ``at 
risk''.
    In 1992 California was the second state after Minnesota in '91 to 
pass charter legislation. This movement was gaining steam all across 
the nation: an innovative idea that initiated the idea of allowing 
schools within the public sector to have a little more freedom, in 
exchange for more accountability. That was the genesis of the Charter 
Schools Act of 1995. It seemed the compromise between political parties 
that allowed for choice within the public school market. This began the 
journey of each state having the opportunity to enact its own charter 
legislation. This in itself is unique as there is no standard model. 
Therefore each state has determined its own way to fund, develop and 
regulate charter schools. To date, 39 states and the District of 
Columbia have charter legislation. The impetus of this movement was due 
to continued poor performance by many public schools and the continuing 
under-performance of a large population of our students, the goal was 
to provide opportunity where prior there had been none within the 
public education:
    1) Parents would have choice about where their children attended 
school, regardless of geographical or district boundaries
    2) Teachers would be provided the opportunity to develop innovative 
and resourceful programs
    3) Research proven materials and programs would be developed and 
used,
    4) Community would be developed that owned and embraced the 
learning of their children.
    This grand experiment afforded parents the opportunity to seek a 
school that would meet their expectations and serve their children.
    While there are many public schools doing great things for our 
children, the data is telling us that there are not enough of them, and 
for those seeking change, it is not happening fast enough. Our children 
deserve better. If we are serious about the training of our children 
and preparing them to be ``21st Century Skills ready'', able to compete 
in a global market as viable candidates in the job market, we've got to 
take seriously the data that is telling us that our young adults are 
not making the cut. If you've viewed the YouTube video ``Did you 
know?'' you'll find that as far as global competition China and India 
have more honors students that America has students! These are daunting 
statistics for those of us committed to the education of our children.
    To be realistic about what is necessary for our students to be 
successfully educated in ways that will prepare them to be ready for a 
global market place, it would seem imperative that the paradigm of the 
``one size fits all'' of our traditional American public education 
system must change. Charter Schools have been the beginning of that 
change.
    Our culture has changed, our families have changed, and our world 
has changed. How can our education programs not change? How can we 
continue to debate whether this idea of choice is viable? There are 
large bodies of data as reported by the Center for Education Reform 
(see http://www.edreform.com) and others including the latest report, 
``Portrait of a Movement'', by the California Charter Schools 
Association, that indicate comparing apples to apples, charters are 
doing a better job educating the underperforming and at risk student. 
As one involved in this movement daily, it is obvious that we must 
change our view of education to one of a buffet, rather than ``the 
everybody eats the same meal concept''. Students today don't want the 
same things as students of your age or your mom's once wanted. Every 
young person does not want a 4 year high school with cheerleaders and 
football team.
    Charter schools have arrived on the scene for precisely this 
purpose and precisely for this moment. Small schools, run by people of 
vision and mission for a particular program, invested completely in the 
mission of their program, totally in control of not only their 
finances, but their staffing, allow for the most incredible opportunity 
for our students across this country: the ability to ``choose'' a 
program that fits their own idea of preparation for their future.
    Clearly, charters are not the panacea to all the ills of public 
education, and not all charters are doing a bang up job. But they are 
an incredible option for families that are becoming acute consumers of 
public education. Underperforming schools are not only a problem with 
charter schools, they are the very reason that charters exist, 
underperforming traditional public schools. The difference is that 
among charter schools, there is not an entitlement to exist forever, 
taking public dollars and continuing to do a poor job at educating 
children. The National Charter Schools Authorizers, along with many 
state charter school association, including the California Charter 
Schools Association, is committed to culling out the poor performing 
charters, so that indeed, we are doing exactly what we've been put into 
existence to do. Would it not be great if we were able to close any 
public school that consistently performed poorly?
    As for my own personal experience with charter schools, as the 
founder, 10 years ago Literacy First began as a little start up school 
with 114 little boys and girls k--3rd grades in their new school 
clothes with their back packs on their backs. Eager eyes waited as 
proud nervous parents stood close by anxiously looking at a rag tag, 
maverick group of enthusiastic dream weavers to whom they were 
entrusting their children with the promise of and in the adventure of 
building a school that was going to prepare their children for the 
future.
    The San Diego County Board of Education had the foresight to be our 
partner in this educational venture * * * and now 10 years down the 
road with 4 school sites, 1200+ students and more than rusty old desks, 
Literacy First has spun that dream of years past into a incredible 
place where all the tenets upon which charters were enabled, happen 
daily:
    1) Parents do have a choice
    2) Teachers are developing innovative and resourceful programs
    3) Research proven materials and programs are being used, and
    4) A community has developed that owns and embraces the learning of 
their children.
    They say that a picture is worth a thousand words, and while time 
is a constraint in this hearing, I would encourage you to visit our 
website at www.lfcsinc.org for a picture of what a great set of schools 
are doing in San Diego. Actually, I'd like to invite you to visit at 
any time. We're more than happy to share our story.
    After ten years, this is the success story, while we began with a 
team of just 6, that team has now grown to almost 130 and of that 6/5 
original team members are still standing. You might also note that 
while the myth exists that charters don't do special populations, at 
LFCS we have a very diverse student population which includes almost 
one third of our students being English language learners, the majority 
of whom are from Iraq, and our special education population is about 
13% where the average in a typical school is considered to be 10%; 
despite these numbers, we have some of the highest test scores in the 
county (note the color brochure). Additionally, although we opened up a 
new school last fall, we continue to have a waiting list of over 800. 
Waiting for Superman is not an urban legend; it speaks to our school 
experience as well. Our lottery for 2011-12 was just held last Tuesday. 
We have lived with this disappointment for the past 7 years. At this 
point we feel that if we ``build it, they will come'', however again, 
facilities are such an ordeal, including over zealous building codes 
and anti--charter legislation in CA, that finding facilities is akin to 
a nightmare. Nonetheless with the understanding that ``replicate-able 
models'' should be reproduced we continue to look for new options for 
the families of East County.
    While not every charter school operates as we do, some of the 
distinctives of our schools that are important factors to many charters 
is that of our longer school day and longer school year. We have a 
unique calendar in that generally speaking we have a week off each 
quarter rather than the three overextended months off in the summer 
that originated with our country being an agrarian culture. This is no 
longer true. While we do have an extended summer break, we've tried to 
do what research says works and that is: more time on task, more time 
in school. We know that schools in our area have changed their behavior 
because of our existence. Calendars have changed, curriculum has 
changed and programs have changed in an effort to compete with what we 
are offering. Is that not great? In every other area of our lives as 
Americans, we view competition as a good thing * * * why not in 
education? We know that in the end children are being served better 
because of the pressure that our schools have placed on other schools 
in our local area. I know that this same impact is felt in other areas 
where high performing charters exist. In addition, we do not have 
tenure at LFCS. Our teachers understand that they are competing for 
their jobs every day by way of accountability. We have strong grade 
level teams, strong internal leadership and mentoring, and we recognize 
that we are only as strong as our weakest leak. For that reason, 
everyone is invested in building the entire ``team'' of LFCS. While we 
recognize that we may not be able to compete with the traditional union 
owned public schools pay scale, we do have a merit pay system which is 
based on a set of criteria established by our Board. This merit pay 
applies to everyone from the housekeeping staff to me, the Executive 
Director. We all recognize that the role that each plays, like Patton 
told his troops in Normandy, is vital to the success of the entire 
team. Additionally, we have what is called an ``above and beyond'' 
program. This pay incentive is an option for any staff that choose to 
be ``entrepreneurial'' in developing a new program, heading a 
committee, serving in leadership or a variety of innovative options 
that could be endless. This allows teachers that choose to be over the 
top to be rewarded for that extra effort. Their regular salary is for 
an outstanding job, not a mediocre one.
    In the end, not only are our students served more effectively, but 
our staff is invested in the mission of what we are doing and intent on 
individual students' success.
    As a charter school organizer, I am always puzzled by those claims 
that charters hold an unfair advantage. Charters have been commissioned 
with one basic mission: make a difference in our education and the 
proof of that is higher graduation rates, higher test scores and more 
successful students. The trade off of our existence comes down to this: 
If charter schools don't perform, they cease to exist. Performance is 
the bottom line. It is a brilliant marriage between business and 
education. It forces competition and requires serious and deliberate 
attention to every daily detail to justify our existence. There is 
absolutely no sense of entitlement. My staff hears from me often, ``We 
serve at the pleasure of the tax payer''.
    According to the Center for Education Reform, this fall there will 
be almost 5500 charter school nationwide, serving over 1.7M students 
with the goal being to meet the needs of our children more effectively. 
In my state of California there are 912 charters with 115 of those 
opening just last fall. We serve 365,000 students. These are public 
schools, publically funded schools, doing school a little bit 
differently, making a huge impact on closing the achievement gap and 
giving hope to many that previously have felt abandoned by 
underperforming schools with no way out.
    An interesting factor to note regarding charter schools is that 
there are as many charter schools types as there are charter school 
operators. This is the unique nature of charters that allow for 
innovation to thrive. This was the grand experiment. Find replicate-
able models, and replicate them. Like most movements that go against 
the status quo developing a charter is not an easy task. However, 
despite challenges in growth, funding and facilities, charters are 
proving themselves to be resilient. This in itself is a testament to 
the strength of the movement and the need for the reform. Parents have 
recognized that ``choice'' is a great option. Finding a school that 
meets their needs, fits their students' abilities or strengths is an 
American ideal. It gives power back to the people in very real, 
tangible and powerful ways. Charters are providing a much needed sense 
of relief to a system that has been unresponsive for decades.
    As for Literacy First, there are so many good things going on at 
our school it's hard to put it into three minutes, or thirty minutes 
for that matter, however as the founder and Executive Director of LFCS, 
let me say that this is a place where we recognize that what we do is 
more than just teach content. It's about training the future of 
America; it's about raising students that get what it is to be 
American. It's about bringing families into the process and partnering 
with them in these difficult times. It's a place where character 
counts, parents matter, teachers care * * * and because of that 
children thrive.
    Thank you for the opportunity to bring my experience in charter 
education forward today as it pertains to their vital role to the face 
of American public education today.
                                 ______
                                 
    Chairman Hunter. Thank you, Debbie.
    I would now like to recognize Dr. Miron for 5 minutes.

  STATEMENT OF DR. GARY MIRON, COLLEGE OF EDUCATION, WESTERN 
                      MICHIGAN UNIVERSITY

    Mr. Miron. Thank you, and thank you for the opportunity to 
participate in this hearing today.
    My name is Gary Miron. I am a professor of education at 
Western Michigan University.
    Over the last couple of decades, I have been evaluating 
school reforms and education policies both here in the states 
and in Europe.
    Here in the states, I have been asked nine times by state 
education agencies to come and conduct comprehensive 
evaluations of charter schools with--I have on record now, some 
of them are more favorable results that favor--in favor of 
charter schools from Connecticut and Delaware.
    We also have some of the results from our evaluations that 
showed that charter schools are not performing well, 
particularly in my home state of Michigan.
    In more recent years, I am doing more research with my 
doctoral students on education management organizations. And we 
are tracking the growth of these organizations that now manage 
close to a third of all the charter schools in the nation.
    I like the charter school idea, particularly as it was 
articulated in the 1990s in the legislation. And when we look 
back at the legislation, we still see many of these original 
goals of charter schools still intact.
    Now I want to talk about those briefly. And then talk about 
some of the evidence that we see today relative to those goals 
and objectives.
    One of the objects of those charter schools was to empower 
local actors in communities. And this was certainly the case in 
the 1990s. It created a lot of new opportunities for educators 
and others to start schools.
    Today however, we are seeing increasingly charter schools 
being run and operated from across state or across the country 
in corporate offices, as more and more of the impetus for 
growing charter schools is going to private education 
management organizations.
    Another thing is--an original goal was to enhance parental 
involvement. The research has been very consistent here.
    Parents that choose charter schools and stay in charter 
schools consistently report high levels of satisfaction and 
opportunities for involvement.
    When we look at open access for all, charter schools--our 
public schools are open to all. There is anecdotal information 
here and there that charter schools counsel out students.
    In my evidence that I have seen from my state evaluations, 
I don't see that. We do see however that charter schools are a 
vehicle for accelerating segregation by race, by class, and 
ability. Not necessarily because the charter schools are doing 
anything, but parents help select.
    So the next thing is professional--to create professional 
opportunities for teachers was one of the original objectives. 
And we haven't seen this so much.
    Today we are seeing more and more scripted education. So--
and the role of teachers being lessened in charter schools and 
eroded. So the high attrition rates that we see among teachers 
now between 20 and 30 percent annually, is part of that issue 
about working conditions for teachers.
    Another--one of the objectives we talk most about is 
charter schools creating higher performing schools. And when we 
look at the evidence, when we look at local studies, we look at 
case studies or individual schools, we tend to see evidence to 
suggest that charter schools perform better.
    But when we look at the evidence from state education 
agencies, when they contract evaluations, or from the federal 
government, we see that the evidence looks different. The 
larger the scale, the study on student achievement, we also see 
they tend to be more negative.
    Just to mention three studies--in 2007 we did a Great Lakes 
study that covered six states. We found charter schools 
performing at a lower level, although they were gaining faster 
than traditional public schools.
    What we noticed in the other charter schools states like 
Minnesota, Wisconsin, and Michigan, the performance tended to 
level off once the performance level neared or became closer to 
the traditional public schools.
    Illinois was the only state where we saw that the 
performance surpassed the local district.
    Another study was a Stanford study in 2009. They--it was 
the largest study to date. Sixteen states were included.
    They found that in 17 out of 100 comparisons, charter 
schools did significantly better. Thirty-seven out of 100 
comparisons, they found charter schools performed significantly 
worse. The rest were a mix.
    One last study I want to emphasize is from the U.S. 
Department of Education, spent over $5 million on a rigorous 
study that was published last year. It was done by Mathematica.
    In there they found looking at over-subscribed charter 
schools, which are their popular high-performing charter 
schools that they have large waiting lists, they found that 
these schools performed--the students in these schools 
performed similar to those students that were on the waiting 
list.
    I do have some concerns about the rapid growth and 
expansion of charter schools. And I know to some extent my 
concern about quality--rather over quality finds that many, I 
think, in the charter school establishment may find this 
antagonistic, but I think in the longer run, focusing on 
quality, revisiting the original goals and objectives of 
charter schools, will help to strengthen the charter schools in 
the longer run.
    Thank you.
    [The statement of Mr. Miron follows:]

    Prepared Statement of Dr. Gary Miron, Professor of Evaluation, 
         Measurement, and Research, Western Michigan University

    I am a professor of evaluation, measurement, and research at 
Western Michigan University. Over the last 2 decades I have had 
extensive experience evaluating school reforms and education policies 
in the United States and Europe. I have conducted 9 comprehensive 
evaluations of charter school reforms commissioned by state education 
agencies and have undertaken dozens of other studies related to charter 
schools and private education management organizations (EMOs) that have 
been funded by the US Department of Education, state agencies, private 
foundations, as well as advocates and critics of charter schools. In 
addition to my direct research or evaluation work related to charter 
schools, I have provided technical assistance to charter schools in 
Connecticut, Hawaii, Michigan, New York, Ohio, and Pennsylvania. This 
assistance has largely focused on developing accountability systems and 
helping schools to collect and report data.
    In Europe, I have studied the national voucher reform in Sweden and 
conducted research on school restructuring in other four countries. For 
the Organisation for Economic Co-operation and Development (OECD), I 
have been serving as an external expert and over the past few years I 
have worked with a network of OECD countries to develop international 
indicators related to school choice, parent voice, and school 
accountability.
    In recent years, my research has increasingly focused on education 
management organizations and efforts to create systemic change in urban 
schools in Michigan and rural schools in Louisiana. Prior to coming to 
Western Michigan University in 1997, I worked for 10 years at Stockholm 
University. Aside from a long list of technical reports, I have 
authored or edited eight books and has published more than 3 dozen 
articles or chapters in books.
Original Goals of Charter Schools
    Charter schools were created as a new form of public school that--
in exchange for autonomy--would be highly accountable. They would 
improve upon traditional public schools in two ways: by developing and 
sharing innovative practices, and by promoting competition. Charter 
schools have received considerable bipartisan support and have become 
one of the most prevalent and widely debated school reforms visible in 
the last several decades. Today there are around 5,000 charter schools 
in 40 states and the District of Columbia, enrolling close to 1.5 
million students.
    While I looked favorably upon the original intent of charter 
schools, I am increasingly concerned that after two decades and 
substantial growth, the charter school idea has strayed considerably 
from its original vision.
    A growing body of research as well as state and federal evaluations 
conducted by independent researchers continue to find that charter 
schools are not achieving the goals that were once envisioned for them.
    Charter schools are nonsectarian public schools of choice, free 
from many regulations that apply to traditional public schools. The 
specific goals for charter schools are typically found in legislative 
acts. Let me identify these goals and comment on the related research 
evidence:
    <bullet> Empower local actors and communities. Involvement of local 
persons or groups in starting charter schools is shrinking, replaced 
instead by outsiders, particularly private education management 
organizations (EMOs), which steer these schools from distant corporate 
headquarters. Claims that EMOs can make charter schools more effective 
have not been substantiated by research.
    <bullet> Enhance opportunities for parent involvement. Parents who 
choose schools can be expected to be more engaged, presumably leading 
to higher student achievement and other positive outcomes. Evidence 
suggests that parent satisfaction is one of the strengths of charter 
schools. Most of this evidence, however, is based on surveys of parents 
whose children remain in charter schools and excludes parents whose 
children have left these schools. Nevertheless, the fact that charter 
schools are growing in size and number is a strong indication of the 
demand that still exists for charter schools.
    <bullet> Create new opportunities for school choice with open 
access for all. Charter schools are schools of choice. With few 
exceptions, they are open to students from any district or locale. 
Advocates argue that the very act of choice will spur students, 
parents, and teachers to work harder to support the schools they have 
chosen. Evidence, however, suggests that charters attract and enroll 
groups sorted by race, class, and ability. Increasingly, charter 
schools are using admissions or placement tests. Last year, research 
conducted by Western Michigan University found that only one-quarter of 
charter schools have students populations that are similar to local 
school districts in terms of ethnic composition and the proportion of 
low-income students. When it came to student composition based on 
students with disabilities or students classified as English language 
learners the findings were even more stark.
    <bullet> Develop innovations in curriculum and instruction. 
Proponents argued that charter schools could function as public 
education's R&D sector, and their benefits would extend to traditional 
public schools that adopted and emulated their innovations. Evidence to 
date, however, suggests that charter schools are not more likely than 
traditional public schools to innovate.
    <bullet> Enhance professional autonomy and opportunities for 
professional development for teachers. Allowing teachers to choose 
schools closely matching their own beliefs and interests was to create 
school communities that spent less time managing stakeholder conflicts 
and more time implementing effective educational interventions. 
Although some charter schools have created and fostered professional 
opportunities for teachers, the overall evidence on this goal does not 
suggest that this has been realized. High levels of teacher attrition 
suggest teachers are not finding suitable professional learning 
communities in charter schools.
    <bullet> Create high performing schools where children would learn 
more. Notwithstanding pressure for performance on state assessments, 
the growing body of evidence indicates charter schools perform similar 
to demographically matched traditional public schools on standardized 
tests. This is so despite the existence of some exceptional charter 
schools in every state.
    <bullet> Create highly accountable schools. In exchange for 
enhanced autonomy over curriculum, instruction, and operations, charter 
schools agree to be held more accountable for results than other public 
schools. Schools that fail to meet performance objectives can have 
their charter revoked or not renewed (performance accountability); 
schools that don't satisfy parents may lose students and, in theory, go 
out of business (market accountability). Yet closure rates are 
relatively low, and most charter schools that close do so because of 
financial mismanagement, rather than performance or market 
accountability. The burden of producing evidence regarding charter 
school success has shifted to external evaluators or authorizers. 
Charter schools--on the whole--have not been proactive with regard to 
accountability; instead of being ``evaluating'' schools, they have 
become ``evaluated'' schools.
Reasons Why Goals for Charter Schools Have Not Been Achieved
    Why this overall lackluster performance?
    <bullet> Lack of effective oversight and insufficient 
accountability. Many authorizers lack funds for oversight and some of 
them are unprepared and--in some cases--unwilling to be sponsors of 
charter schools. A key factor that undermines effective oversight is 
that objectives in charter contracts are vague, incomplete, and 
unmeasurable. Between 2002 and 2008 more attention was given to the 
role and importance of authorizers, however, this seems to receive less 
attention today.
    <bullet> Insufficient autonomy. Re-regulation and standardization 
driven by NCLB and state assessments are limiting autonomy. 
Requirements that charter schools administer the same standardized 
tests and have the same performance standards as traditional public 
schools means that they cannot risk developing and using new curricular 
materials.
    <bullet> Insufficient funding. The financial viability of charter 
schools is dependent on the state, on how facilities are funded, and on 
the particular needs of the students served. Some charter schools 
maintain large year-end balances thanks to less costly-to-educate 
students or extensive private revenues; others are clearly underfunded 
for the types of students they serve or because they lack social 
capital to attract outside resources, or both. Funding formulae vary by 
state, but it is fair to say that if charter schools are expected to 
innovate, they need more funding, not just greater autonomy.
    <bullet> Privatization and pursuit of profits. The increasing 
numbers of private operators may bring expertise or experience, but 
they also glean high management fees and tend to spend less on 
instruction--and reports continue to show that EMO-operated schools 
perform less well than non-EMO operated schools. There are some 
emerging nonprofit EMO models that may prove to be more effective.
    <bullet> Strong and effective lobbying and advocacy groups for 
charter schools quickly reinterpret research and shape the message to 
fit their needs rather than the long-term interests of the movement. 
They attack evidence that questions the performance of charter schools 
and offer anecdotal evidence, rarely substantiated by technical 
reports, in rebuttal. Such lobbying has undermined reasoned discourse 
and made improving charter schools more difficult.
    <bullet> High attrition of teachers and administrators, ranging 
from 15 to 30 percent, leads to greater instability and lost 
investment. Attrition from the removal of ineffective teachers--a 
potential plus of charters--explains only a small portion of the annual 
exodus.
    <bullet> Rapid growth of reforms. In states that implemented and 
expanded their charter school reforms too quickly, charter schools have 
faced a backlash as shortcomings in oversight and other neglected 
aspects of the reform become apparent. The states that have grown their 
reforms more slowly have been able to learn from early mistakes and 
establish better oversight mechanisms.
Questions Policy Makers Should be Asking
    Can we create better public schools through de-regulation and 
demands for greater accountability? How are charter schools using the 
opportunity provided them? The answers to these questions require 
comprehensive evaluations--resisting the dodge that every charter 
school is its own reform and should be looked at separately. More 
specific questions that policy makers should be asking include:
    <bullet> How can charter school laws be revised to create more 
accountable schools?
    <bullet> Can funding formulae be revised to ensure that charter 
schools serving the neediest students receive sufficient funding, 
motivating more charters to attract and retain more-costly-to-educate 
students, such as high school students, those with special needs, and 
those living in poverty?
    <bullet> How can incentives and regulations be used to ensure 
poorly performing charter schools will be closed?
    <bullet> Are there better uses for public resources than charter 
schools--smaller class size, increased teacher remuneration or 
incentives, increased oversight of public schools, support to 
restructure struggling or failing district schools, etc.?
Who Stole My Charter School Reform?
    Even as the original goals for charter schools are largely ignored, 
charter schools fulfill other purposes.
    <bullet> Promote privatization of public school system. Charter 
schools have provided an easy route for privatization; many states 
allow private schools to convert to public charter schools, and 
increasing the use of private education management organizations is 
increasingly being seen as the mode for expanding charter schools.
    Today, one-third of the nation's charter schools are being operated 
by private education management organizations (EMOs) and this 
proportion is growing rapidly each year. In states such as Michigan, 
close to 80% of charter schools are operated by private for-profit 
EMOs. Claims regarding privatization remain rhetorical and unsupported 
by evidence. The recent economic crisis has shown that our economy 
requires greater public oversight and regulations, a finding that can 
be reasonably extended to markets in education.
    <bullet> Means of accelerating segregation of public schools while 
placing the ``Private Good'' ahead of the ``Public Good.'' State 
evaluations find that charter schools seem to accelerate the re-
segregation of public schools by race, class, and ability, instead of 
creating homogeneous learning communities based on particular learning 
styles or pedagogical approaches.
    If privatization and accelerated segregation are not outcomes that 
the federal government wishes to achieve with charter schools, then it 
would be wise to consider how federal funding can be used to persuade 
states to revise their charter school reforms.
    Federal and state policy makers need to revisit the goals and 
intended purpose of charter schools, clearly articulating values and 
anticipated outcomes.
Quality versus Quantity
    Once dedicated to educational quality, today's charter school 
movement is increasingly dominated by powerful advocates of market-
based reform and privatization in public education.
    As the federal government considers how it wishes to steer and 
develop charter schools, it would be wise to articulate a new--or 
renewed--vision for chartering that focuses on quality over quantity. 
Then, as US Department of Education wields its influence, it can 
persuade states to make revisions in their charter school laws that 
reflect those goals and values. Most importantly, such guidance should 
reward states that create successful charter schools, rather than 
states that simply expand the charter school market.
    Finally, authorities need to move more aggressively to close poorly 
performing charter schools. This will strengthen charter reforms in 
four ways: lifting the aggregate results for charters that remain; 
sending a strong message to other charter schools that the autonomy-
for-accountability tradeoff is real; redirecting media attention from a 
few scandal-ridden schools to successful schools; and opening up space 
for new, carefully vetted charters.
    Although these suggestions may be seen as antagonistic by the 
charter school establishment, we believe they will help improve and 
strengthen such schools in the longer run. The charter school idea was 
to create better schools for all children, not to divide limited public 
resources across parallel systems that perform at similar levels and 
suffer from similar breaches in accountability. Rapid proliferation in 
the charter sector appears to be interfering with the original vision 
for the schools: to serve as a lever of change, spurring public schools 
to improve both by example and replication.
    The only way to ensure quality may be to get off the expansion 
express. Rapid proliferation in the charter sector appears to be 
interfering with the original vision for the schools: to serve as a 
lever of change, spurring public schools to improve both by example and 
replication.
    Charter schools can be returned to their original vision: to serve 
as a lever of change, spurring public schools to improve both by 
example and through competition. But if they are to do so, they must be 
better than traditional public schools, and they must be held 
accountable for their performance.
                                 ______
                                 
    Chairman Hunter. Thank you, Doctor.
    Now I would like to recognize Dr. Purvis for 5 minutes.

   STATEMENT OF DR. BETH PURVIS, EXECUTIVE DIRECTOR, CHICAGO 
                  INTERNATIONAL CHARTER SCHOOL

    Ms. Purvis. Good morning--or good afternoon, Chairman 
Hunter, Ranking Member Kildee, and esteemed members of the 
subcommittee.
    My name is Beth Delaney Purvis. And I am proud and honored 
to be here today to speak with you about the role of charter 
schools and public education.
    For the last 8 years, I have served as the executive 
director of the Chicago International Charter School. CICS is a 
network of 15 charter school campuses serving 8,800 students 
from kindergarten through 12th grade in Chicago and Rockford, 
Illinois.
    The mission of CICS is to provide, through innovation and 
choice, an attractive and rigorous college preparatory 
education that meets the needs of today's students.
    Eighty-six percent of CICS students qualify for free and 
reduced lunch, 94 percent are African-American or Latino, and 
six of the 14 CICS campuses are located in the 10 highest 
violent crime neighborhoods in Chicago.
    Our 15th school is located in Rockville--Rockford, Illinois 
which was recently ranked as the ninth most violent city in 
America.
    The highly dedicated teachers and staff across the CICS 
network are working diligently to achieve the mission of CICS. 
During the 2009-2010 school year, the average student at a CICS 
campus open for more than 3 years was performing at or above 
the national average in reading and math.
    The 4-year graduation rate of CICS is 84 percent with over 
90 percent of the graduates being accepted into college.
    As you know, charter schools are public schools of choice. 
Although they are freed from much of the bureaucracy that 
prevails in the traditional schools, charter schools must 
employ certified or highly qualified teachers, meet state 
learning standards and assess students according to the state 
requirements, educate children with disabilities according to 
IDEA, if a Title 1 School, meet all federal eligibility 
criteria, and participate in a renewal process on a regular 
basis as determined by the local authorizer.
    This review process requires an in-depth analysis of 
student performance, financial stability, and compliance with 
local state and federal regs.
    According to Illinois State Law, initial enrollment in 
charter schools occurs by a blind lottery. In addition to the 
8,800 students served by CICS this year, another 2,000 remained 
on the waiting list during the school year.
    The families that CICS serves, much like most nationwide 
charter schools, have few resources to make other educational 
choices for their children.
    In a city like Chicago, where according to the Consortium 
on Chicago School Research at the University of Chicago, an 
elementary-aged male student, who was African-American or 
Hispanic, has less than a 10 percent chance of graduating from 
college.
    Having choice is critical.
    In 2009, the Chicago Public Schools approached CICS and 
asked us to open a school in the Altgeld Gardens neighborhood 
of Chicago. Unfortunately, Altgeld Gardens gained infamy in 
September 2009 when Derrion Alpert was beaten to death by his 
peers in the aftermath of a fight that occurred earlier in that 
day.
    Because Altgeld doesn't have a neighborhood high school, 
CICS opened the Larry Hawkins campus last September. The 
average reading level of the 10th, 11th, and 12th graders who 
enrolled at CICS Larry Hawkins is the fifth grade.
    In addition, over 50 percent of those same students self-
reported attending school for fewer than 30 days the previous 
school year. Our average attendance this year was over 87 
percent daily.
    As shocking as these facts are, we find that the students 
most--are mostly well-behaved, eager to learn and proud that a 
new school opened just for them.
    I am extremely proud also to tell you that Derrion Alpert's 
father, Mr. Joseph Walker, joined the CICS Larry Hawkins launch 
committee and spoke on the school's behalf at the CPS school 
board.
    Charter schools are required to serve all students who 
apply through the lottery and are accepted. This means that 
charter schools have a legal and ethical responsibility to 
serve children in the least restrictive environment according 
to the IDEA.
    Currently, 14 percent of the students at CICS have 
disabilities. Like traditional public schools, the majority of 
students served by charter schools have high incidence 
disability like ADHD, specific language impairments, and 
learning disabilities.
    However, we also serve students who are blind and visually 
impaired, have traumatic brain injury, hearing impairments, and 
autism.
    I have often been asked whether charter schools counsel out 
students with disabilities. As a person who spent the first 14 
years of my career working as a special educator, I am 
passionate about the rights of students with disabilities.
    The statistics that I quoted to you earlier about CICS 
academic performance include our students with disabilities. I 
believe that the disciplined environment and no excuses 
expectations of most charter schools are ideal for students 
with disabilities.
    I also believe that the ability to veer quickly from the 
prescribed curricula when results aren't apparent is a strength 
of charter schools.
    It is my experience that charter schools provide a strong 
vehicle for neighborhood change because they often establish 
the schools in the midst of a blighted neighborhood.
    By opening schools from the ground up, they can structure 
the school day, school calendar and curriculum materials to 
address the needs and interests of families who live in the 
community.
    Charter schools also make significant investments in 
buildings in which they reside, create new job opportunities, 
and seek partnerships with local businesses.
    CICS owns five of its current 14 campuses and leases the 
nine others. All leased facilities are owned by the Archdiocese 
and we have invested over $20 million in those buildings over 
the last 15 years.
    In 2007, we issued $49 million in tax-free municipal bonds, 
principally with $16 million of that we built a high school in 
the Auburn-Gresham neighborhood. The site where the school 
currently stands had been empty for 12 years with neighbors 
reporting that the abandoned school was being used by drug 
users, drug dealers, and prostitutes.
    I am proud to say that last year, 90 percent of the first 
graduating class of Ellison was accepted into college.
    Charter schools are most effective when they respond to the 
needs of the community. In 2008, CICS was approached by Larry 
Morrissey about opening a charter school in the city.
    I am proud to say after completing its first year of 
educating 240 children, the average growth of students at CICS 
Patriots was 1.2 years academic growth.
    In closing, I urge you to support the work of charter 
schools in your district. As public schools of choice, charter 
schools are giving parents options regardless of the child's 
skills or the family's economic status.
    I encourage you each to visit a charter school so that you 
can understand firsthand that charter schools are truly public 
schools that serve your constituents.
    Thank you.
    [The statement of Ms. Purvis follows:]

  Prepared Statement of Elizabeth Delaney Purvis, Executive Director, 
                  Chicago International Charter School

    Good morning, my name is Elizabeth Delaney Purvis. I am proud and 
honored to be here today to speak with you about the role of charter 
schools in public education. For the last 8 years, I have served as the 
executive director of the Chicago International Charter School. CICS is 
a network of 15 charter school campuses serving 8,800 students from 
kindergarten through 12th grade in Chicago and Rockford, Illinois.
    Prior to joining CICS I was a special education teacher in 
Montgomery County, MD; an early interventionist in Nashville, TN; and 
after receiving my doctoral degree in special education at Vanderbilt 
University, I served for 5 years as an Assistant Professor of Education 
at the University of Illinois at Chicago.
    The mission of Chicago International Charter School is, to provide, 
through innovation and choice, an attractive and rigorous college-
preparatory education that meets the needs of today's students. 86% of 
CICS students qualify for free and reduced lunch, 95% are African 
American or Latino, and 6 of the 14 Chicago Campuses are located in the 
10 highest violent crime neighborhoods in Chicago. Our 15th school is 
located in Rockford, IL which was recently ranked by the FBI as the 9th 
most violent city in America. CICS Patriots is in the midtown 
neighborhood, the area of Rockford with the most concentrated poverty 
and the highest rate of unemployment.
    The teachers and staff across the CICS network are working 
diligently to achieve the mission of CICS. During the 2009-2010 school 
year, the average student at a CICS campus that was opened for three or 
more years was performing at or above the national average in reading 
and math according to the NWEA Measure of Academic Progress. The 4-year 
graduation rate was 84% with over 90% of the graduates being accepted 
into college.
    As you know, charter schools are public schools of choice. Although 
they are freed from much of the bureaucracy that prevails traditional 
schools, charter schools must:
    <bullet> Employ certified or highly qualified teachers
    <bullet> Meet state learning standards and assess students 
according to state requirements
    <bullet> Educate children with disabilities according to IDEA
    <bullet> If a Title I School, meet all federal eligibility criteria
    <bullet> Participate in a renewal process on a regular basis, as 
determined by the local authorizer. This review process requires an in-
depth analysis of student performance, financial stability, and 
compliance with local, state, and federal regulations.
    I strongly believe that because they are part of the public schools 
system, charter schools represent change within the public domain not 
change from ``outsiders''. Charter schools are not the only answer to 
school reform, but represent one way that school districts and state 
agencies can efficiently and affordably improve and increase 
educational options for families.
    According to Illinois State law, initial enrollment in charter 
schools occurs by ``blind'' lottery. In addition to the 8,800 served by 
Chicago International this school year, another 2000 remained on the 
waiting list during the 2010-2011 school year. The families that CICS 
serves, much like most charter schools nationwide, have few resources 
to make other educational choices for their children. In a city like 
Chicago, where--according to the Consortium on Chicago School Research 
at the University of Chicago--an elementary aged male students who is 
African-American or Hispanic has less than a 10% chance of graduating 
from college, having choices is critical. Parents know that although 
the quality of the selective public high schools in Chicago is 
exemplary, the traditional high schools offer little hope for students 
who strive to go to college.
    For this reason, most charter schools are located in high-crime, 
high-poverty neighborhoods where the traditional schools are not 
meeting the needs of students and families.
    In 2009, the Chicago Public Schools approached CICS and asked us to 
open a school in the Altgeld Garden neighborhood of Chicago. 
Unfortunately, Altgeld Gardens gained infamy in September 2009 when 
Derrion Alpert was beaten to death in by his peers in the aftermath of 
a fight that had occurred earlier in the day at Fenger High School. 
Because Altgeld doesn't have a neighborhood high school, CICS opened 
the Larry Hawkins campus last September so that students would not have 
to travel the just under 6 miles across gang lines by public bus from 
Altgeld to the Roseland neighborhood. What we have learned since 
opening this school is that the neighborhood feels betrayed and 
forgotten by the City of Chicago. The average reading level of the 
10th, 11th, & 12th graders who enrolled in CICS Larry Hawkins is 5th 
grade. In addition, over 50% of the students self-report attending 
school for fewer than 30 days during the previous school year. As 
shocking as these facts are, we find the students mostly well-behaved, 
eager to learn, and proud that a new school opened ``just for them''.
    I am extremely proud to tell you that Derrion Alpert's grandfather, 
Mr. Joseph Walker, joined the CICS Larry Hawkins Launch Committee and 
spoke on the school's behalf to the Chicago Public School Board. 
Included in his remarks was the point that opening the CICS Hawkins 
campus had helped to heal the Altgeld community. Mr. Walker and the 
CICS Community Liaison, Ms. Adrienne Leonard have founded another 
group--Pain to Power--which works to provide safe passage to and from 
school for children at 4 CICS and numerous traditional Chicago Public 
Schools.
    Like most charter schools nationwide, the CICS Lloyd Bond and Larry 
Hawkins Campuses reflect the ethnic, racial, and socioeconomic makeup 
of the neighborhood.
    Charter schools are required to serve all children who apply 
through the lottery and are accepted. This means that charter schools 
have a legal and ethical responsibility to serve children in the least 
restrictive environment according to the Individuals with Disabilities 
Education Act. Currently approximately 14% of the students served at 
Chicago International Charter School have disabilities. Like 
traditional public schools, the majority of students served by charter 
schools have high incidence disabilities such as ADHD, specific 
language impairments, and learning disabilities. It is important to 
note, however, that charter schools also serve students who have low 
incidence disabilities such as blindness and visual impairment, 
traumatic brain injury, hearing impairments, and autism.
    I have often been asked if charter schools ``counsel out'' students 
with disabilities. As a person who spent the first 14 years of my 
career working as a special educator, I am a passionate advocate of the 
rights of children with disabilities. The statistics that I quoted to 
you earlier about CICS academic performance include the performance of 
our students with disabilities. I believe that the disciplined 
environment and ``no excuses'' expectations of most charter schools are 
ideal for students with disabilities. I also believe that the ability 
to veer quickly from the prescribed curricula when results aren't 
apparent is a strength of charter school curricula.
    I think it is important to note that charter school employees also 
participate in statewide educational activities and are not always 
``outsiders to the system''. Since 2005, I have had the privilege of 
representing charter schools on the Illinois State Advisory Council to 
the Illinois State Board of Education in accordance with IDEA
    It is my experience that charter schools provide a strong vehicle 
for neighborhood change because they often establish the school in the 
midst of a blighted neighborhood. Charter school operators are explicit 
about the communities in which they want to operate. By opening schools 
from the ground up, they can structure the school day, school-year 
calendar, and curricular materials to address the needs and interests 
of the families who live in the community. Charter school operators 
often make significant investments in buildings in which they reside, 
create new job opportunities, and seek partnerships with local 
businesses in a way that is difficult for traditional public schools.
    Chicago International owns 5 of its current campuses and has 15-30 
year leases in 9 of the others. All nine leased facilities are owned by 
the Archdiocese of Chicago. Over the 15 years of its existence, CICS 
has infused over $20mm into these properties in terms of ADA 
accommodations, preventative maintenance and school readiness. The 
pastors of all nine parishes report that, if they were not receiving 
rent from CICS, their parishes would most likely close and the 
buildings would remain empty.
    In 2007, CICS issues $49,000,000 in municipal bonds. $16,000,000 of 
these bonds were used to build the CICS Ralph Ellison high school in 
the heart of the Auburn-Gresham neighborhood of Chicago. The site where 
the school currently stands had been empty for 12 years, with neighbors 
reporting use of the abandoned schools by drug users, drug dealers and 
prostitutes. Over 90% of the first graduating class of Ralph Ellison 
was accepted into college last year.
    Charter schools are most effective when they respond to the needs 
of the community as defined by the community. In 2008, Chicago 
International was approached by Rockford Mayor Larry Morissey about 
opening a charter school in his city. After a year of meetings with 
local business leaders, community based organizations, and school 
officials, the Chicago International Charter School partnered with Zion 
Development Corporation and the Patriots Gateway Center to open a new 
charter school in the midtown neighborhood of Rockford.
    In August 2010, the CICS Patriots Campus opened with 240 
kindergarten through fourth grade students inside the community center. 
The school principal, Charo Chaney, is a former RPSD205 teacher who 
enrolled her two sons in the school. The majority of the teachers 
reside in Rockford and see the charter school as a real choice for 
middle and low-income families in a city with few affordable private 
school options. By locating the school within an established community 
center with a long and storied history of community service, the 
charter school staff is inextricably linked to the local residents and 
community interests.
    CICS Patriots is about to complete its first year of educating 
children. I am proud to announce that end-of-year testing in reading 
and math using a nationally normed assessment called the NWEA Measure 
of Academic Progress shows that the average student at CICS Patriots 
made over 1.2 years academic growth. There is a waiting list in every 
grade for next year. A charter high school is scheduled to open in 
2013.
    Please know that the federal dollars made available to new charter 
schools enabled CICS Patriots to open its doors with new furniture, 
interactive white boards in every classroom, and a full-time social 
worker. Without that support, I do not believe that our year would have 
been as successful as it has been.
    In closing, I urge you to support the work of charter schools in 
your districts. As public schools of choice, charter schools give 
parents options regardless of the child's skills or the family's 
economic status. I believe that, nationally, charter schools have 
improved significantly the lives and broadened the opportunities for 
the children who have few quality choices.
    I encourage you each to visit a charter school so that you can 
understand first-hand that charter schools are truly public schools 
that serve your constituents.
    Thank you.
                                 ______
                                 
    Chairman Hunter. Thank you, Dr. Purvis.
    We are now going to have member questions starting with 
myself.
    I yield myself 5 minutes.
    The first question is this, Ms. Beyer, you know, I forgot 
to mention in San Diego we have the largest population of Iraqi 
refugees in the entire nation. And Detroit, I think, is number 
two now.
    But we have the most in my district. And those are a lot of 
your students.
    You went through a renewal of your charter recently in 
California. Would you mind sharing with us the process focusing 
on what you learned from the charter renewal process, and how 
the issue of quality specifically was addressed?
    Ms. Beyer. I would be glad to.
    This is our second time around. We actually have two 
charters, the K-8 charter and then a high school charter.
    Literacy First was first approved in June of 2001 and then 
we--2006 we did a renewal. And we are actually in the process 
right now of the actual final vote will be next Wednesday.
    We had our public hearing May 11th.
    The process however is one we have been working on for 
about 3 months. As you know, when you write a charter there are 
16 elements in California that you write your charter to. And 
over the 5 years that you have your charter, you know, 
statutory law has changed.
    So in this process, we have had to update our charter to 
reflect all of the new statutes in education law as far as 
California law goes, any new programs, all the federal regs on 
specific ed, how we treat, you know, our students.
    It has been a grueling process, more so than in any year 
past. And I think this whole concept of accountability, our 
authorizer has taken very seriously.
    Even though we have, like I said, the highest test scores--
one of the--actually probably the highest test scores in east 
county, they have put us through grueling rigor with regard 
to--you know, our test scores are 870. Because we have this 
high EL population, this year making AYP, we had one group that 
went down two points.
    Now mind you, there is still over 850 which the typical kid 
in East County is not there. But our EL students, the--you 
know, our points went down two points.
    And they wanted to know what we were doing to address 
that--you know, the two point drop right there.
    So they have put us through--we started a committee. There 
is a huge committee. They reviewed our charter page by page.
    We went through all the special ed parts--what has changed 
federally, our concepts on expulsion and suspension, you know, 
all those numbers. How we are addressing those.
    It has been a very grueling process. And our authorizer has 
taken that very seriously, even though we are one of the 
highest performing schools in the county.
    Chairman Hunter. Okay, thank you, Ms. Beyer.
    And I have got about 2 minutes, and I have just been 
informed we are going to have one vote. I think we will have 
enough time to recognize the ranking member.
    And then we will break for a little bit and come back.
    Dr. Purvis?
    Your schools compare to the graduation rates around you. 
The graduation rates around you are pretty dismal.
    You focus on college prep in your curricula, right?
    Can you just kind of talk about that for a second and then 
explain why that--why you think that works?
    Ms. Purvis. Well, I think there are a number of reasons.
    First, I think it is important that every child has choices 
at every breaking point in their life, be that eight grade, 
choice of different high schools, high school choice of college 
or the workforce.
    And I believe once we veer away from a college preparatory 
curriculum, we are making decisions for students rather than 
allowing their parents and the students themselves to make 
decisions.
    So to me, it is part of our ethical responsibility to have 
high quality college preparatory high school choices for kids.
    In Chicago, we have a really high exemplary system of 
selective enrollment high schools. Unfortunately, the 
traditional high schools in Chicago do not do a great job of 
graduating students.
    In fact, the 4-year graduation rate for the traditional 
high schools that are not elective enrollment at Chicago public 
schools is under 65 percent. And the college retention rate is 
also quite low.
    So I think by having a curricula that gives parents 
choices, and allows all kids to know that if they so choose 
they can go to college, is very important simply for the 
landscape of our future.
    Chairman Hunter. Thank you, Doctor.
    I would like to yield back the balance of my time and 
recognize Ranking Member Mr. Kildee for 5 minutes.
    Mr. Kildee. Thank you, Mr. Chairman.
    Dr. Miron, some argue that charter schools present parents 
with choice. However, I think we need to do more to provide 
real high quality educational options for families around the 
country.
    Eighty-nine percent of districts do not have charter 
schools. And those that do exist are often not high quality 
options.
    Research shows that populations including students with 
disabilities and English language learners are not being 
enrolled at proportional rates. And the lack of student support 
services like school lunch and transportation exclude the low 
income students who need them.
    Dr. Miron, how is this real choice? How do we address these 
concerns to make sure charters represent a meaningful part of 
educational reform and are part of the whole demography within 
a community?
    Mr. Miron. Thank you for the question.
    It is important to keep in mind that parents choose. And--
but I think that some of the incentives that you have 
suggested, one of the issues--and it is very difficult when we 
talk about charter school's generalizing because things differ 
so drastically from state to state.
    But some states don't require transportation or don't 
require the charter schools, like in Michigan, receive funding 
for transportation but aren't required to provide it.
    What we have done with the OECD, the Organization for 
Economic Cooperation and Development, we have been developing 
these indicators on school choice and parent voice. And we see 
internationally circumstances or factors that aren't in place 
to have good market accountability.
    And that requires things like information. We need 
independent broker of information, so parents--all parents get 
information and can take choices.
    We need transportation systems so that parents can--all 
parents can choose. There are a number of things--supports that 
could be put in place to ensure that more parents can choose.
    In the end, we know, not only in the states but in other 
countries as well, not all parents choose. The ones that choose 
typically have higher aspirations for their children especially 
in terms of educational attainment. So there is always going to 
be differences in that.
    But coming to your point about how we might address some of 
those factors because when we look in charter schools, we do 
see only about a quarter of the charter schools has similar 
demographic composition as their local districts.
    We did a study on this last year, the civil rights project 
in--at UCLA also did a study on this. When we look at issues 
like an ELL or special ed, it becomes much more dramatic.
    But one of the things that could be done is using market 
incentives is funding, better funding formulas that would make 
it stronger incentive to include children with disabilities. 
Charter schools don't count them out necessarily, but they 
don't market towards them.
    If--and we look across the nation about 40 to 48 charter 
schools in the country focus and market themselves as special 
ed charter schools. And they have--between 60 and 100 percent 
of the students have individualized education plans.
    These are exceptional schools. Most of them--most of the 
charter schools have very few students with disabilities 
relative to the local district. And they tend to be of--with 
milder disabilities that are less costly to remediate.
    But I think here the funding formulas that vary 
considerably from state to state can provide incentives or 
disincentives depending on how those are held.
    Mr. Kildee. Isn't that a type of cherry picking when--have 
the right to apply, enroll in a charter school. That charter 
school does not have school lunch.
    Now in Flint, Michigan one of the reasons we were able to 
get children to school, which is a real problem, truancy, is 
the fact that the public go to get their most nourishing meal 
of the day at the school lunch program.
    And then if you live in the one area of Flint, Michigan, 
where I used to teach school, and the charter school is at the 
other end, and there is no transportation provided, is that 
really open enrollment, in fact?
    Mr. Miron. The way the charter schools market themselves--
and there has been some research on the way the messages they 
give in terms of uniforms or the demographic composition of the 
children in the pictures and so forth, charter schools by the 
services they provide and the way they market themselves, they 
do--they are part of this process.
    I would point out Connecticut is an exemplary where they 
require each charter school, not to select based on race or 
class, but they require each charter school to recruit from all 
segments of the district.
    And I think that is a very good approach to help ensure 
that charter schools are at least trying to market themselves 
to all groups. But in the end, it is parents who are choosing.
    Mr. Kildee. With education being a local function, a state 
responsibility, and a federal concern is there something we can 
do on a federal level--sorry, Mr. Chairman--to encourage that 
outreach to bring a broader demographic group into the charter 
schools?
    Is something in federal law--could that assist in that?
    Mr. Miron. Not in federal law, there is--the guidance is 
that charter schools shouldn't--cannot select based on 
characteristics such as race or class.
    Mr. Kildee. Okay, thank you.
    Thank you, Mr. Chairman.
    Chairman Hunter. All right. Thank you, Dale.
    I would now like to recognize the chairman of the full 
committee, Mr. Kline for 5 minutes.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you to the witnesses for being with us today and 
telling us your stories.
    I find it interesting as I am travelling the country, I 
have done many round table discussions with school leaders, 
superintendents and principals and so forth. And I was at one 
of these round table discussions, I think in Pennsylvania. 
Maybe it was New York, but I think it was Pennsylvania, not 
long ago.
    And one of the superintendents while applauding many of the 
steps that we are looking at in this House of Representatives 
to--in our efforts to--re-authorize and improve the Elementary 
and Secondary Education Act said, ``Well, Mr. Chairman,'' he 
said, ``I am really excited about what you are doing. But,'' he 
said, ``I see you are a supporter of charter schools.''
    And he said, ``That is just not fair. Because--gosh, the 
money goes to the student and the charter schools get to 
operate under a different set of rules.''
    And my response, I think, was something on the order of 
precisely. You get to operate under a different set of rules. 
And maybe we ought to be considering those different set of 
rules for other schools.
    But one of the strengths it seems to me of the charter 
schools, and varies obviously somewhat by state, but charter 
schools have authorizers. And if the charter school is not 
performing, the authorizer can shut the school down.
    You don't necessarily have that ability in the public 
school system.
    So, Ms. Rowe, let me start with you.
    As that authorizer, and I think you are the only authorizer 
at the table, it is your responsibility as that authorizer to 
identify a low performing school and shut it down.
    So my question to you, as your first round of schools came 
up for renewal, how did you address the concerns about the 
performance?
    How do you do--identify them? How did you monitor what sort 
of protocols did you use?
    How did you decide, in short, how to shut down a school?
    Can you address that for us?
    Ms. Rowe. Mr. Kline, I would be happy to.
    And I will try to keep it short. But it is in fact a 
lengthy process that--that when over a couple of year period, 
when the Charter Board determined the charter contracts in 
Arizona are 15-year contracts, and we have 5-year interval 
review processes.
    And in establishing what was going to be the criteria for 
renewal, the Charter Board looked at what information we have 
about our schools.
    And we were able to determine that we collect information 
on an annual basis regarding their financial operations and 
their compliance with the law. But one of the places where we 
were really lacking in consistent information over time was in 
their academic performance.
    And so as we looked at the procedure for renewals, we in--
that is when we embraced the growth model, because the growth 
model provided us an ability to look at not only how each 
school is performing with their students at a point in time, 
but also enabled us to look at how the schools are progressing 
over time.
    And so then at renewal when we had the opportunity to look 
at that data, and it was the first time we actually had a 
series of data to look at, we were able to make determinations 
about the continuation of those charters both on what their 
past performance had been, but their story about what they have 
learned about their students, how they were going to move 
forward in making additional changes and improvements in their 
programs for their continuation.
    It wasn't--closing a school or not renewing a charter is 
never an easy decision. It is the right decision. And it is 
appropriate that an authorizer makes those decisions when 
necessary.
    Mr. Kline. Well, thank you.
    As I said, I think that is a kind of an important feature 
as we look at charter schools as we do have that ability--
authorizers have that ability to evaluate the schools.
    And I found it interesting that you talked about finances 
and other sort of administrative issues, and then got to the 
issue of academic performance.
    And one of the things as we are looking at accountability 
going forward, it is clear, I think, to both sides of the aisle 
that we need that information. Authorizers need--and parents 
need that information so that they can make informed choices 
about whether or not to get in the line of 800--I think that 
Ms. Beyer--one of you said you had 800 people waiting to get 
into a school.
    Well, they need that information to make a determination if 
that is a line they want to get into. And you, as an 
authorizer, need that kind of information to make a 
determination if the school is simply not performing.
    I see my time is up. And we have been called to vote.
    So I yield back.
    Chairman Hunter. I thank the chairman for the yield.
    I think we can get one more question in.
    Ms. Hirono is recognized for 5 minutes.
    Ms. Hirono. Thank you very much, Mr. Chairman.
    I have some questions for Mr. Miron.
    I know that you visited charter schools and other schools 
in Hawaii. And you probably had an opportunity to compare the 
student achievements in both these schools.
    But Hawaii is unique in that while we don't have a huge 
number of charter schools, yet a number of the schools are 
Hawaiian-based, culturally-based schools to specifically help 
native Hawaiian children achieve.
    So in your visits to the--to Hawaii schools, did you see 
any difference in educational attainment and the mainly 
Hawaiian-based charter schools versus the regular schools?
    Mr. Miron. One of the original goals of charter schools was 
innovation. And I often say charter schools to truly be 
innovative organizations, they probably don't have enough money 
to become those types of organizations.
    We see innovations in a number of states. And one I often 
bring up when I am talking about charter schools is--are the 
native Hawaiian charter schools. They use play space and site-
based management--or play-based and site-based instruction.
    And they truly are innovative in terms of bringing about 
new curricular material, and working with a population of 
students that is performing very poorly in a traditional public 
school system.
    So therein one thing that I have worked with and is to 
assist some of them with funding through the community schools 
is to ensure that they are able to demonstrate accountability.
    And many charter schools and coming back to that notion 
about old notion of charter schools, charter schools were 
supposed to be evaluating schools, not evaluated schools.
    They were supposed to demonstrate accountability based on 
the unique missions and so forth.
    So what I have been doing with technical assistance with 
charter schools over the years, it is often--I am helping them 
to find those measures to capture what they are doing that is 
unique and demonstrate accountability to their authorizer based 
on that.
    So we are not only looking at student achievement results. 
And the results for this--the schools in Hawaii are--that they 
are very difficult to capture because the population is rather 
mobile, and some other factors. But they really are accountable 
to their unique missions.
    Ms. Hirono. I visited a number of those charter schools in 
Hawaii. And I think that we really are--these schools are very 
unique and meeting some very unique needs.
    Now, one part of your testimony that really interested me 
was your concern about these education management organizations 
that more and more are coming into play in basically running 
the charter schools throughout our country.
    So can you talk a little bit more--I think in Hawaii these 
entities are not the----
    Mr. Miron. No.
    Ms. Hirono [continuing]. The ones----
    Mr. Miron. They are not there yet----
    Ms. Hirono. They truly are community-based, parent-based 
charter schools in Hawaii.
    But in the rest of the country, I--what are your concerns 
regarding what sounds like privatizing of charter schools.
    Mr. Miron. It is--and I am--sometimes I am a little bit 
resentful because I am old-fashioned. I like the old charter 
school idea.
    But I almost think we need a new name for these schools 
that we are talking about today, whether we call them franchise 
schools or corporate schools.
    Let us talk about charter schools--is that idea from the 
1990s that we are going to be locally run schools. That we are 
going to be innovative like the Hawaiian charter schools.
    But what we see today, and I will give you an example from 
Detroit. Detroit is looking to bring in charter management 
organizations to help convert these traditional public schools 
to become charter schools.
    And they are bringing in only successful and proven 
operators, management companies with charter schools.
    But when we look at the list of companies involved, they 
have terrible records. And many of them have no evidence that 
they have ever managed a school in the past.
    And so we are pushing--much of the growth today is being 
pushed by the use of these education management organizations. 
And yet, it is a different reform that we are talking about 
today.
    And this is an unproven reform today. The only large 
operator that I have seen was convincing evidence of student 
achievement results. It is our KIPP schools.
    And they have several studies that have confirmed that 
students that attend and persist in KIPP do better. And that 
has been confirmed independently.
    The concerns we have with KIPP, based on an earlier study 
this year, is selective entry, highly selective exit of 
students. And then they receive considerably more money per 
pupil. So we are not certain that model is scalable.
    But for many of these other operators, especially those 
that are making a pitch in Detroit, I am very concerned because 
they are not proven yet. We have to depend on them and what 
they are reporting as their record of evidence.
    Ms. Hirono. Before I go on to my next question, I would 
like to acknowledge the presence of two public school teachers 
from Hawaii. They have come a long way to sit in this hearing--
it is Greg Lerned and Megan Staring.
    Aloha.
    I do have a question for Ms. Purvis.
    Is Chicago International an education management 
organization?
    Ms. Purvis. No. CICS--thank you for the question.
    CICS actually is the portfolio manager. And we hire--we 
have contracts with educational management organizations to run 
the day-to-day operations of our schools.
    We currently have four educational management organizations 
with whom we work. Two are for-profit, two are not-for-profit.
    But we regulate--we have very strict contracts with them 
that regulate the outcomes, and they are 1-year renewable 
contracts. So if we believe they are not hitting our sort of 
focused outcomes, we can replace those under our existing 
charter.
    Ms. Hirono. Thank you.
    I think my time is up. I yield back.
    Chairman Hunter. I thank the gentlelady.
    The House is currently voting. The members need to be on 
the House floor.
    As such, the committee shall stand in recess until 
immediately following the vote.
    I urge my colleagues to return quickly to the hearing. And 
I appreciate the patience of our witnesses and the audience.
    [Recess.]
    Chairman Hunter. The committee will reconvene and come to 
order following our recess.
    I would like to recognize Mrs. Biggert from Illinois for 5 
minutes.
    Mrs. Biggert. Thank you, Mr. Chairman, and my question is 
directed at Ms. Rowe.
    It seems like--could you explain a little bit, you are the 
authorizer. And it seems like many of the states only allow 
state education agencies or the local education agencies to 
authorize charter schools.
    Do you think that we should permit more independent 
authorizers to be involved in the process?
    And do you think that the state-wide authorizers are 
something that should be considered?
    And also, should there be--should the authorizers' 
activities be included in funding from the Federal Charter 
School Program to make sure that they have got quality, 
innovation, and improvement in the charter?
    Ms. Rowe. Sure.
    Mrs. Biggert, I am--because I work for an independent 
chartering board that has statewide authority, it would be 
inappropriate for me to answer that in any other way than yes, 
absolutely.
    I think it is appropriate for statewide authorizers. But I 
believe that for--not just because of my employment, but for a 
lot of really valid reasons.
    First of all, with the Charter Board, the Arizona State 
Board for Charter Schools is an independent chartering board. 
And so our sole purpose is to authorize charter schools and 
then provide oversight.
    And because that is all we do, we have been able to develop 
fair, transparent, and consistent policies that allow us to 
provide oversight of the charter schools across the state.
    There is no question about what action the board might 
take, because we have consistent policies that are implemented 
in all situations.
    I believe that local education agencies and other 
authorizers have that same capacity. But the success of the 
board, and especially in its recent development of its renewal 
policies, and the improvements in its 5-year interval review 
processes has been based on the guidance of the--the NACSA, the 
National Authorizer--National Association of Charter School 
Authorizers' principles and standards.
    We have used that as a guide in developing all of our 
procedures from our application process as we make revisions to 
that, in our oversight and in our renewal processes.
    So I think that while a statewide authorizer has its 
benefits, it is certainly appropriate that regardless of the 
size of the authorizer, the boundaries of their authorizing 
practices, that they have policies and procedures that can be 
consistently implemented.
    Mrs. Biggert. And then how about the funding. Do you think 
that the authorizers like today should be included in the 
Federal Charter School Program?
    Ms. Rowe. The State Board for Charter Schools has recently 
benefited from access to the National Association for Charter 
Schools Authorizers evaluation practices. And it makes sense to 
me that while we have to remember that every state is a little 
bit different in their chartering laws, that we--it is 
appropriate that we have some common standards, some 
professional standards.
    Almost every industry has professional standards. It is 
appropriate for authorizers to have professional standards as 
well. And so to the extent that there can be funding made 
available for that purpose I believe it is appropriate.
    Mrs. Biggert. Okay. Thank you.
    And then you talked about the Arizona growth model and 
LAAP.
    How--and in determining the quality of the schools, how 
much do--in the charter schools, how much do student test 
scores count? And how does that factor into teacher 
evaluations?
    Ms. Rowe. Mrs. Biggert, there is a new evaluation formula 
that is being--a framework that has been adopted by the State 
Board of Education.
    I know in the discussions there was some debate about the 
percentage. And I don't remember where they landed.
    But there is a percentage of the teachers' evaluation that 
is a result of their students' academic performance. And I 
would be happy to get that for you----
    Mrs. Biggert. Yes, that would be great. And what else is 
included in the teacher evaluations and the charter schools 
observations, peer review, what else is in that?
    Ms. Rowe. The--I am sorry. I didn't prepare for evaluation 
framework questions today. So I apologize for that. And I will 
get that to you.
    But I will share with you that in the requirement that an 
evaluation framework be developed, it was determined that 
charter schools would be included in that same framework that 
district schools are included in.
    So that is one situation here recently where a new law in 
Arizona included charter schools in it.
    Mrs. Biggert. Thank you very much. I yield back.
    Chairman Hunter. I thank the gentlelady.
    I would now like to recognize Ms. Woolsey for 5 minutes.
    Ms. Woolsey. Thank you very much, Mr. Chairman.
    It was my understanding in the 1990s--in the olden days 
when we first started talking charter schools that charter 
schools were going to be examples because of freedoms in 
innovation of what would be the best practices to apply to the 
public school system.
    I am sure that we didn't--I know I didn't intend that we 
have a private school system which we have.
    And then we have a private charter for-profit school 
entity. And then everybody else gets to go to a struggling 
public school.
    So Dr. Miron, what exactly are the exemptions to state laws 
and district regulations that make it so much easier for a 
charter school to--the ones that are good--because they aren't 
all exemplary. We know that. We have heard that.
    The 30--35 percent that are being successful, why?
    Mr. Miron. That is a very good question. I think a lot of 
us would like to know exactly what those factors are.
    Just let me comment a little bit. You are correct. In the 
1990s, we talked about the account--higher levels of 
accountability in exchange for that autonomy given to charter 
schools.
    This autonomy notion is a little bit confusing also because 
today charter schools don't receive the autonomy that was 
envisioned for them in the 1990s. Part of it is because of 
reregulation, but also because of the use of standardized tests 
in No Child Left Behind which has brought the charter schools 
in forcing them to teach to the same tests which has limited 
their ability or interest to go outside and try different 
things.
    Ms. Woolsey. Well, because they get federal funds.
    Mr. Miron. Right, right----
    Ms. Woolsey. I mean, they are receiving----
    Mr. Miron. Right, but that is one of the reasons why they 
don't look that different.
    But in terms of the waivers, this is really fascinating and 
for example in Pennsylvania, there is a book this thick of 
rules and regulations for traditional public schools.
    And, you know, only about an inch of--five inches of text 
is actually what--is not waivered. So charter schools get lots 
of rules waived.
    But in reality, they are not significant. They are like two 
shade trees must be in front of each public school--a whole 
bunch of silly things.
    But they do receive the most significant waiver they have 
is regarding employment of teachers that essentially they can 
hire and fire teachers at will.
    That is the biggest waiver or piece of autonomy that they 
have today. Because today they still have to--now they are 
being held accountable by the same mechanisms as traditional 
public schools.
    Ms. Woolsey. Well, where in the system of--you three 
charter school experts, where is the public school system 
coming in and learning from your successful example?
    And why aren't we just using what works for you in the 
public school system?
    I mean, most kids have--are going to be educated in the 
public school system. And don't tell me it is because you are 
public schools, because you are public-financed, but you are 
also for-profit schools.
    I mean I just want to know how you are good--tell me about 
you are good examples, and how we can get them into the public 
school system.
    Ms. Beyer. Could I could speak to that.
    Ms. Woolsey. All right.
    Ms. Beyer. Like I stated in my testimony, I know for a fact 
that in our area, we have our public schools in the--Valley 
that have changed significantly their calendars. They have 
changed--they have made longer school days. They have made 
their calendar change. They are using different curriculum.
    And it is because--even the private schools in our area 
actually have changed the way they are doing things because we 
have pulled a lot of the private school population to our 
school because it is free.
    And we have a huge technology program. And that is 
something that a lot of public schools don't have access to.
    And the biggest difference is that I see in our case is we 
are in charge of our money. The money comes to us and we are in 
charge of it.
    One small school that is growing bigger, but we are in 
charge of how we spend our money. And I know where every dollar 
goes.
    I pick the books. I work with the team when we choose 
technology.
    We are close to every dollar that gets spent. And that, I 
know, from my friends who are principals in other public 
schools, they don't have that kind of autonomy.
    They have very little control over what goes on in their 
local public school, whereas with our four schools, I know 
where every dollar is going. I know what every--you know, what 
is happening. And we are in charge of not only hiring our 
staff, but we are in charge of how we spend our money and how 
we--what kind of curriculum we use.
    And I know for a fact that in East County area, many of the 
private schools and the public schools have changed their 
calendar and are using different curriculum because of that.
    Ms. Woolsey. And, Dr. Miron, can you see any reason why a 
public school can it adopt a longer school day.
    Mr. Miron. Some of them are doing that already. We are 
seeing increasingly--one of the first reactions from 
traditional public schools is when a charter school comes in 
and offers a full day kindergarten. We will see the traditional 
public school offering that.
    And so we do see some of the examples of that as some 
pressures for change.
    Ms. Woolsey. Okay.
    Chairman Hunter. I would like to recognize Ms. Roby from 
Alabama for 5 minutes.
    Ms. Roby. Thank you, Mr. Chairman.
    To each of our witnesses thank you so much for being here 
today and taking the time to answer our questions.
    Of course, I am from Alabama. And we are one of 10 states 
that do not have charter schools. And part of the reason for 
that is that the Alabama Education Association has come out 
very much in opposition to charter schools.
    And one of their main arguments is that they believe--and 
the reason they oppose charter schools is that they believe 
that they will take funding away from local traditional 
schools.
    And so, you know, based on your successes which we have 
heard about today and even meeting some bright young students 
from Democracy Prep while we were voting. And I am encouraged 
by their personal testimony.
    But Ms. Rowe and Ms. Beyer and Dr. Purvis, if you could 
weigh-in--if I could take anything back to my state 
legislature, the people who represent me in the state, as well 
as our State Board of Education, if I could take back some 
really strong arguments that would dispel the Alabama Education 
Association's belief that charter schools would take away 
funding from local traditional schools, what--how can you 
weigh-in on that?
    Ms. Beyer. Well, I think there has to be a paradigm shift, 
because part of that whole attitude of--they are going to take 
money away. I mean, you hear that over and over again.
    The money follows the child. And so if we are talking about 
what is good for students and what is good for our kids and 
education, if the student has a choice and they choose to go 
someplace else, that money is going with the child.
    It is not an entitlement. And I think that is really kind 
of the difference in thought with regard to charters as opposed 
to just traditional public schools is, we recognize that we are 
commissioned with one thing and one thing alone. And that is 
success.
    And if our kids aren't doing better, we have the prospect 
of being shut down. And so there is this brilliant marriage 
between business and education where we know that if we are not 
making the most of every single dollar that comes our way, and 
we are not showing results with it, that we are no longer going 
to stay in existence.
    The regular public school doesn't have that sort of 
accountability over them. They for years have been putting out 
a--you know, having the same thing, collecting federal money. 
And doing the same program and putting out the same bad product 
in many cases. But they continue to want the money.
    And so the paradigms got to shift to say, the money follows 
the student. And if the student is not there, you don't deserve 
to have the money because the money is not there to build your 
district. It is to support the student.
    So if the student goes someplace where they can get an 
education, then your program needs to reflect that. And you 
need to develop a program that is sustainable.
    For my program, I know that we have made a commitment that 
we do not start programs that are not sustainable. And as, you 
know, having to be really accountable for our dollars, we know 
that if we get a pocket of money, we can it build some big old 
huge programs, because we know that money is not going to be 
there next year.
    And I think that is one of the issues that have come in 
public education is they get these pockets of money and start 
programs, and then act as if they are an entitlement to have 
that program for the rest of--you know, forever.
    And we recognize in charter education that, you know, that 
money is precious. And we have got to use every dollar because 
we don't get the same funding. And we have got to make it count 
for every dollar that we can.
    So money has to follow the child. It is not an entitlement 
to that school district.
    Ms. Roby. Right, thank you.
    Dr. Purvis?
    Ms. Purvis. I always think this is a curious argument both 
for what Ms. Beyer said, but if you look at a city like 
Chicago, and I think this is similar across school systems 
across the country, the disparity in spending per child within 
the districts is far greater than the disparity in funding per 
child between the charter schools and traditional schools in 
the same neighborhood.
    So what is interesting to me when I think about this 
argument about funding disparity and the money leaving the 
public school system, my first reaction is--we are public 
schools.
    The second thing is this is parents exercising their 
choice. You go to a public school of choice that may have a 
mission or a vision that better is aligned with that family's 
values.
    And the third is that there is quite a lot of disparity 
across Illinois. There is huge disparity in funding from one 
district to another.
    So the argument about funding between charter schools and 
traditional schools, I think is a little bit of a spurious one 
if we are not addressing inequity in funding across the state 
as a whole.
    Ms. Roby. Sure. Thank you so much.
    Did you want to--Ms. Rowe?
    Okay.
    Ms. Rowe. Thank you. I guess a question that I would take 
back to your friends in your state would be to ask them if they 
truly believe that the needs of every child are being met.
    And asking those teachers too, do they believe that they 
have the flexibility in their classrooms to make the decisions 
that they need to make to truly educate the students in the way 
that they need to, and be able to provide them each with a 
quality academic education.
    Ms. Roby. Thanks so much.
    Mr. Chairman, I yield back.
    Chairman Hunter. Mrs. Davis is recognized.
    Mrs. Davis is not here, so we are going to move to Mr. 
Grijalva who is recognized for 5 minutes.
    Mr. Grijalva. Thank you, Mr. Chairman, appreciate that.
    Mr. Miron, one of the concerns that I have and I think has 
been mentioned to some extent or another by all of you is the 
issue of underrepresentation in student population in charter 
schools. Special populations, I am concerned that they are not 
receiving the attention and the services.
    And could you talk a little bit about any concerns you may 
have that--which the--for the special populations in charter 
schools briefly. And also, do these concerns or the 
underrepresentation increase when a charter school is a for-
profit institution?
    Mr. Miron. Last year, we conducted a study. It is called, 
Schools without Diversity. And it was a look at nation's 
charter schools.
    And we looked at using the federal data set, the--of data. 
We looked at the demographics in charter schools and compared 
them to local districts.
    And we found that only about a quarter of the charter 
schools had similar demographic compositions in terms of race 
and class in terms of free and reduced lunch count as the local 
districts.
    The other schools were what we would call segregate of 
white or segregate of minority. Many people have expressed 
concerns that charter schools are going to lead to white 
flight. White families will leave urban schools and create 
their own white schools.
    What we have found in our study was that is happening. But 
what is more pronounced is actually black flight or minority 
flight. Where minorities are fleeing somewhat diverse schools 
and going to schools with much higher concentrations of the 
similar population demographically.
    So this is happening across the country. And of course in 
every state there are exemplary schools that have made great 
efforts to recruit and ensure that there is similar composition 
of students.
    But now when we get to issues about English language 
learners and children of special needs, it becomes much more 
pronounced. A very small proportion of the schools have similar 
populations of their local district.
    When we get to charter schools, in terms of special needs, 
we see that there is usually about 3 to 6 percent less students 
with disabilities. But when we look more closely at that in 
state level data, we can see that the nature of the children 
with disabilities tends to be more mild disabilities, less 
costly to remediate.
    And I think an important thing when we look at finance--we 
have done a lot of work on charter school finance, when we look 
at spending on special ed, say even at KIPP schools, we find 
that they have half the number of students with special needs 
at the local district. But they spend one-tenth per pupil what 
a local district would spend.
    And so we can see those as very big disparities. And they 
do have an impact on traditional public schools, especially 
when--depending in the state, but many times the funding 
formulas are such that it--the charter schools don't benefit 
from serving children with special needs because they are not 
fully funded----
    Mr. Grijalva. Got it----
    Mr. Miron [continuing]. By state and federal funds. And so 
by serving these kids, they in a sense have to sometimes divert 
some of the students' resources for traditional public school 
students.
    Mr. Grijalva. Those concerns more pronounced in a for-
profit or not-for-profit----
    Mr. Miron. Yes, we did see that. It is somewhat more 
pronounced with the for-profit schools that they had smaller 
numbers of children with disabilities.
    That is correct.
    Mr. Grijalva. Thank you.
    Mrs. Beyer, you mentioned that in one of the schools, that 
up to a third of the students are English learners, although 
the California Department of Ed says 15 percent. But why 
quibble?
    The--and 27 percent of the district around it is a--is 
primarily English learners.
    Because of your--because of that population in your 
experience, what have you learned about your successes and 
failures with English language learners?
    What do you--that you think could inform and help us get 
those kinds of achievements at a national level--that 
significant population that you are dealing with?
    Ms. Beyer. Well, what we found, we actually located our 
school specifically in the corridor where we did because it is 
in the lowest socioeconomic area of San Diego County. And there 
is kind of a two-mile wide swath that it is in a very well 
income----
    Mr. Grijalva. What is the primary language other than 
English that you deal with?
    Ms. Beyer. Arabic. Arabic.
    So in this neighborhood, about--you know, we have all 
these, you know, walking students within the two miles. And we 
do have about 25 percent of our students are Iraqi students 
that speak Arabic or Caldean.
    And then about 12 percent that are Hispanic students. But 
our Hispanic students come more ready with English then our 
Iraqi students because generally they come as refugees from 
Iraq.
    What we found when we started our school, we knew that we 
would have this EL population. And so from the very beginning, 
our program started as one that would cater to English 
learners.
    We developed an English language master plan. And in that 
we decided that our English language learners, we started with 
them in kindergarten. And they come to school earlier.
    The--we have two kindergarten sessions. They come to school 
earlier or stay later for a 30-minute block where they are just 
learning English language when they start with kindergarten.
    And then during the school day, we have specific times 
where students--in California we have a test called, The 
California English Language Development Test. And every English 
learner is tested with this test. And they are ranked on a 
scale of one to five of what their skills are in English.
    Depending on where they fall on that ranking, we develop a 
program specifically for those students.
    And our program basically does two things. First, it 
teaches them English. And we know that when kids come in a lot 
of them speak English, but it is not academic language.
    I mean they are social. Their parents say, well, they don't 
need English because they speak English at the----
    Mr. Grijalva. My time is up Ms.--but----
    Ms. Beyer. Okay.
    Mr. Grijalva. And thank you, Mr. Chairman, for the 
indulgence of letting the witness talk longer.
    But, Mr. Chairman, if I may, I think this is a very, very 
important question. We have struggled with it across the 
nation.
    And, you know, an in-depth look at what appears to be a 
unique and singular success story in this one school, I think, 
with Arabic mind you, not Spanish or Vietnamese. I think it 
would merit a much closer look.
    Thank you.
    Ms. Beyer. Thank you.
    Chairman Hunter. I agree with the gentleman. And it happens 
to be in my district.
    I was just talking to Mr. Kildee. We have the highest 
population now of Arabic refugees--of Iraqi refuges that speak 
Arabic in my district.
    But I recognize Mr. Scott for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Miron, who gets--you have some private, some public. 
Who gets to attend a charter school?
    Is this the lottery or, you know, you have to kind of be in 
the know, or you have to pay or how do you get in?
    Mr. Miron. Parents choose. And parents--we see this around 
the world. Parents who have higher aspirations for the students 
will choose. Parents with a higher educational background, they 
will choose--they are more likely to choose.
    But also where there are supports and mechanisms to 
encourage choice more families will choose.
    Mr. Scott. Well, is there enough room for everybody that 
wants to go?
    Mr. Miron. Pardon?
    Mr. Scott. Is there enough room for everyone who wants to 
go?
    Mr. Miron. In many cases there is. There is--we don't 
have--audit the data that is often reported about waiting 
lists.
    So sometimes we are hearing very large numbers. But this is 
not an accountability mechanism. But what we understand is that 
there is waiting list.
    Mr. Scott. Now, does experience show that some are better 
than private--than public schools and some are worse?
    Mr. Miron. Yes, I am--there is in every state that we have 
evaluated. And when I look at the broader body of research, 
there is some schools have performed better.
    And the most comprehensive study being the Stanford study 
where they found 17 out of 100 comparisons they made were 
demographically matched students, the charter schools were 
significantly better.
    However in 37 out of 100 comparisons, the charter school 
students were doing significantly worse. The rest of the 
comparisons, there was no significant difference.
    Mr. Scott. How would a parent know which one to choose?
    Mr. Miron. This is an--I mean, parents know because the 
ones who are--have higher aspirations, more wherewithal 
perhaps, two parent families where they can get out and make--
and collect that data and information. They will go out and 
find that information and take decision--again, not all parents 
choose.
    There was a recent study in Arizona actually by David 
Garcia and his colleagues at Arizona State University where 
they looked at parents' decision-making. And when parents were 
informed about--that they had a low performing school and what 
their options were, so the state agency was informing parents. 
And yet, very few parents choose to leave.
    Even among those charter school parents who were informed 
that their charter school was performing very poorly, the 
parent didn't necessarily use that information to choose and 
leave.
    Mr. Scott. One of the things--one of the issues we have in 
the voucher debate is that a lot of people who would get a 
voucher would have ended up in a private school anyway.
    When you have charter schools that the number of--and if 
you talk about following--the money following the student, if 
you have a number--increase the number of charter schools does 
the number of students in public schools go down by the same 
number?
    Mr. Miron. Generally, it does. I mean, we see in some 
states and in some urban municipalities that--especially some 
of the Christian schools are hit pretty hard by charter 
schools.
    And even some----
    Mr. Scott. No, I mean the public schools, because you are 
trying to save money.
    Mr. Miron. Pardon?
    Mr. Scott. If you--in the public school does the number of 
public school students go down when you increase the number of 
charter schools?
    Mr. Miron. It often does. And as well----
    Mr. Scott. Often does some----
    Mr. Miron [continuing]. Private schools as well.
    Mr. Scott. And sometimes it doesn't?
    Mr. Miron. And sometimes--I mean, it is--and sometimes it 
doesn't. Especially with the virtual schools, the virtual 
charter schools are largely--draw from the home school 
community.
    Mr. Scott. Well, if the number of public school students 
doesn't go down when you fund charter schools, then you really 
are taking money away from the public school system.
    Mr. Miron. Yes. In terms of the funding issue, there is a 
number of ways that charter school funding hurts traditional 
public schools.
    One is it is true that the money follows the student. But 
it is also true that charter schools can set a cutoff. We 
want--we have two teachers, we are going to take 30 students 
per class. We will take 60 students.
    Traditional public schools don't have that luxury. So they 
can't do the economic planning.
    So when they loose a student, a lot of times they are 
operating with half classes because they can't do that economic 
planning that a charter school can.
    But another important factor on that finance thing is that 
charter schools--they should be open to all. But it doesn't 
mean that they have to receive students during the school year.
    Traditional public schools often have a burden of taking 
students throughout the school year, and many of them coming 
from charter schools. And in some states, depending on the 
funding formula, in most states, it means that the students 
will be returning to the traditional public school without the 
funding attached, with the funding staying at the charter 
school.
    Mr. Scott. Thank you----
    Mr. Miron. And that hurts.
    Mr. Scott. Now, you mentioned segregation a little bit. Any 
jurisdictions where the existence of charter schools did not 
increase segregation?
    You showed a--many jurisdictions segregation was----
    Mr. Miron. The one example I would say from my state 
evaluations and the look at the larger data, it is--Connecticut 
would stand out.
    They have segregated schools. But they are similar 
populations--characteristics are similar in the charter schools 
as the local districts.
    Mr. Scott. So it didn't make it worse. But usually the 
segregation is increased when you have charter schools?
    Mr. Miron. In other context it has accelerated the re-
segregation. Yes.
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Hunter. The former chairman and ranking member of 
the full committee is now recognized for 5 minutes.
    Mr. Miller?
    Mr. Miller. Thank you very much for your testimony and the 
questions and answers have been helpful.
    My concern is--some of my concerns, I have been a strong 
proponent of charter schools. But I am really starting to think 
about whether we are really getting value-added here.
    And I recognize that there is not a formula--parents choose 
the charter school. They may choose it for safety. And they may 
choose it for convenience.
    They may choose it because their friends' kids go there. 
However, they do that.
    Hopefully, they are seeking a better education result for 
their children.
    But the idea of choice alone doesn't really tell us 
anything about quality. I mean you have large urban districts 
where you have district-wide choice.
    So that in itself doesn't tell you. If that was the case we 
would have a lot of high-performing schools in a number of 
urban areas if that was an indicator of it.
    So the question is what happens when you choose these 
schools?
    And, Mr. Miron, you are suggesting that the study suggests 
a small percentage are doing better than the schools they left 
or the schools in the district--similar schools in the district 
about a third are doing the same and about a third are not 
doing so well--are doing not better then.
    So what is it we are getting here? In terms of again, a 
number of my colleagues have mentioned the initial idea that 
these were our laboratories for experimentation. We were to 
learn from them.
    They were to help pull the rest of the schools in the 
direction of good practices and good outcomes.
    That is not exactly working. And again, I can--like 
everybody, I can run and show you a number of charter schools 
where it is working. I mean in terms of the outcomes.
    So----
    Mr. Miron. The anecdotes and the--you know, the case 
studies that successful charter schools are important because 
they help to show us that charter schools can work and help us 
to inform us on how they are working.
    Again when we look at the larger scale studies and those--
especially those commissioned by state agencies or the federal 
government, the results show that they are not working and 
the--on the whole.
    And so what we are getting in this reform, today we largely 
see the two outcomes are accelerating segregation by race, 
class, and ability. And we see a mechanism for accelerating the 
privatization or private involvement, and in this--in the 
public school system.
    Mr. Miller. The other concern I have is that--and the woman 
sitting next to you said we are a public school.
    Well, sort of.
    Because you are not taking--or not required--you mentioned 
there is some schools where they don't take kids who show up in 
the middle of the year or any time in the school year.
    They have their set universe and that is it. If it shrinks, 
it shrinks. But that they don't have to do it.
    And yet in most urban schools or rural schools with migrant 
populations, you have kids coming and going all of the time.
    There is a big difference in those classroom studies than 
in a school that is very stable for a given period of time.
    The question of re-segregation or ELL learners, how that 
takes place, so, you know, I am desperate to have them continue 
to be the laboratories for experimentation and the path finders 
here.
    But to not operate in fairly similar situations, then that 
is not going to be the case because you don't get to deny 
children access to a neighborhood school if they move into the 
neighborhood or somewhere close by.
    So again, I want to know what the rules are here. And I say 
this is as--is a battle for the charter schools. But I am 
really concerned now. That and the questions of whether 
authorizers really have oversight--exercise oversight and the 
tough decisions that have to be made.
    Ms. Beyer. Mr. Miller?
    Could I----
    Mr. Miller. Yes.
    Ms. Beyer [continuing]. Speak to that?
    I think part of the concern, like you, as one who has been 
involved in this movement for years, is the grand experiment 
was what we said in the 1990s. That these would be laboratories 
where we would define best practices and replicatable models 
and replicate them.
    However what I found in California is because there was, 
you know, this kind of gaining steam about this movement that 
would have some exchange of red tape for more accountability, 
legislation came in and every time, you know, a new legislative 
session happens, I have--I am in fear because they put more 
regulations on me that pull me back in to being the same as the 
school in the box.
    So for me to try to be innovative and resourceful, I have 
to not only climb over the same box that the rest of the public 
schools are doing, but then I have to do the other things on 
top of it, and not one because I chose to do this.
    But it is a difficult task because that experiment to allow 
us to kind of go out there and do the innovative thing has been 
taken away in many regards because we have been pulled into No 
Child Left Behind, having to do the same sort of testing, 
having to do come up with the same sort of results.
    The fact that I have 30--you know, 25 percent of my 
students are English language learners. And that they don't 
speak English at all. They came to this country, you know, 6 
months ago with no English doesn't change the fact that in May, 
they have got to take the state test. And they have got to 
perform the same way.
    And so--and there is no, you know, no allowance for that.
    So those kinds of things have taken some of the 
entrepreneurial ability for us to be innovative and resourceful 
out of the equation and forced us back into the box.
    So it is not so much that the people in the charter 
movement would not want to stay that way, it is that a lot of 
regulation continues to be forced on to us that causes us to 
have to get back in the box. Which really is not what we had 
originally intended I think in the 1990s.
    Mr. Miller. Thank you.
    Mr. Scott. Chairman, you know, consent to enter into the 
record several reports----
    Chairman Hunter. Yes----
    Mr. Scott [continuing]. One is from the Center for Research 
and Education outcomes, one from the Civil Rights Project at 
UCLA, and another Education and Public Interest Center at 
University of Colorado?
    [The following report, ``Multiple Choice: Charter School 
Performance in 16 States,'' may be accessed at the following 
Internet address:]

      http://credo.stanford.edu/reports/multiple_choice_credo.pdf

                                ------                                

    [The following report, ``Choice Without Equity: Charter 
School Segregation and the Need for Civil Rights Standards,'' 
may be accessed at the following Internet address:]

    http://civilrightsproject.ucla.edu/news/research/k-12-education/
      integration-and-diversity/choice-without-equity-2009-report

                                 ______
                                 
    [The following report, ``Schools Without Diversity: 
Education Management Organizations, Charter Schools, and the 
Demographic Stratification of the American School System,'' may 
be accessed at the following Internet address:]

      http://epicpolicy.org/publication/schools-without-diversity

                                ------                                

    Chairman Hunter. Without objection.
    Mr. Scott. Thank you.
    Chairman Hunter. Now recognize Mr. Payne for 5 minutes.
    Mr. Payne. Thank you very much and thank you all for coming 
down.
    As you know, that whole question of charter schools is a 
tremendous issue that we have been grappling with in my state 
of New Jersey. There is a strong movement.
    Of course I think it is already been raised. But as we may 
recall 1896 had separate but equal decision by the Supreme 
Court saying it is separate but equal was constitutional. Of 
course they were never equal.
    However as you know in the 1954 Brown Versus Topeka Board 
of Education it was overturned unanimously.
    However, what I am finding out is that we are sort of back 
to where we were, at least at my state of New Jersey, Governor 
Christie's state. We had the most segregated schools in the 
nation--New Jersey.
    Now I am not proud of it. You would think it might be down 
in the deep south or where these five cases came up for the 
NAACP to take the case to the Supreme Court.
    But in my state of New Jersey, which was not one of those 
states, we have the highest segregated school system in the 
nation. Now, charter schools is just exacerbating it.
    And in that 1954 Supreme Court decision--now part of it was 
not the fact knowing that they were unequal but there was a 
false feeling of superiority on the part of white children who 
were all in all white schools.
    And conversely a false feeling of inferiority on the part 
of blacks students who were in substandard segregated schools.
    Now the charter movement is--and we had it already before 
the charter movement came in--but I have never seen an attempt 
to have a diverse charter school in my neck of the woods in New 
Jersey.
    Up until recently, we saw very few handicapped kids. There 
is supposed to be a lottery too, so there must have been some 
very skillful pickers out of the lottery pot.
    The other thing was that the siblings of a child who was 
fortunate enough to get in the charter school automatically 
could then go to the charter school. Once again the same 
family, highly motivated, could drive across town with their 
kids every morning, pick them up.
    And there is nothing wrong with highly motivated parents, 
you know, providing for their kids. I mean I am the last to say 
that that is wrong. That is not wrong.
    However, what is left and what is being left in the public 
schools are public school teachers dealing with the rest. We 
had a governor just--I guess we had about 20 new charter 
schools.
    Things that we found out, they are saying charters are 
doing better in New Jersey. Well, they started to look at the 
demographics and don't you know, anyway in New Jersey. I don't 
know about your district.
    But there are more girls in elementary school, charter 
schools, just happen to be, not like the normal balance.
    You know, little girls tend to do better in school. I 
taught school. I mean, it is--you know, I am an ERA person. You 
know, the girls do better. They just achieve better.
    I taught in elementary. I have taught in secondary. I 
taught in post-secondary--3 years in each.
    And so I did it on purpose to find out what was wrong. I 
started with high school, believe it or not. And then went down 
to junior high and then went to elementary.
    And was clear to find all three categories. So I had spent 
a lot of time in education, in my early career.
    But what the re-segregation, with the fact that there are 
more girls, the fact that there are not handicapped kids, with 
the fact that there were very few special eds, the charter 
schools got high ratings.
    Ms. Beyer. I understand that----
    Mr. Payne. Also in our state, we have $900 million voucher 
program--probably the only state in the north that has started 
to have vouchers.
    So we are going to see under our new leadership in the 
state of New Jersey a really--destroying of the public school 
system. And there is no way that charter schools can fill the 
gap.
    You know, my time is about up. I didn't even get to my 
question.
    But this is really something that is of concern. And if we 
go to simply continue to re-segregate schools, those 
psychological issues might return.
    There is very little way to monitor what is going on. I 
talked to some kids. They were going to a high school. They 
haven gotten a building yet. And they don't even know where 
they are going to do it.
    Actually the Board of Ed had to try to--you know, they are 
giving public schools to charter schools. And so they are 
trying to find--converting one school into two schools, and 
using that school for the new charter school.
    And a lot of experimentation is going on. And a lot of 
children are really going to lose a lot of valuable time in 
very young years. That I think that is good for those who are 
attending it. And I do commend those that are doing well.
    I question the for-profit because I think that that is the 
goal of public education--the last big public pot. And industry 
needs a way to make money.
    And I think it is going to be the privatization of public 
schools is what the goal is. And I don't think that is good for 
our nation.
    Chairman Hunter. Thank the gentleman.
    The gentleman's time has expired.
    Mr. Holt is recognized for 5 minutes.
    Mr. Holt. Thank you, Mr. Chairman.
    I am going to follow a line of questioning that others have 
followed today.
    Ms. Rowe, you mentioned that as has often been said, that 
charter schools are incubators for innovation. And you went on 
to say that, ``Best practices and programs of instruction to be 
found in the charter schools are now being implemented in 
traditional public schools.''
    What are the mechanisms for transferring best practices and 
the innovation that is demonstrated?
    And give us--I would like a couple of for instances. And I 
would like to ask each of the witnesses of that. So if you 
could keep it very brief, I would appreciate it.
    Ms. Rowe. Chair--thank you, Mr. Holt.
    I am--what we have seen in Arizona as the primary 
authorizer, we are--we receive requests from districts on a 
regular basis to look at the charter school files, to evaluate 
their programs of instruction, to look at the details of their 
program to decide--to determine what it is that is attracting 
parents to those schools.
    A very specific example that we have seen most recently is 
one of our homegrown charter management organizations, Great 
Hearts, has implemented a liberal arts program at the junior 
high and high school level, and most recently in elementary 
schools, but in looking at providing a college prep curriculum 
for all students.
    And the result of that has been as they have moved into a 
number of areas across the Phoenix area, the district schools 
that are finding that their students, their parents are 
attracted to that population are--they are creating their own 
little college prep school as well.
    Mr. Holt. And they needed a charter school to learn to do 
that?
    Well, let me skip to Dr. Purvis then please.
    Ms. Purvis. Thank you for the question.
    Mr. Holt. Sorry there isn't more time.
    Ms. Purvis. I have four instances that I think will get to 
the idea of sharing best practices across charter and 
traditional schools.
    The first is that our teachers actually participate in 
shared professional development opportunities with--the Chicago 
public school has system area development offices so there are 
times that there are charter schools and charter school 
teachers and traditional Chicago public school teachers in 
professional development areas together.
    Second is that we look to share information through public 
sources, through some of our funders, the Gates Foundation, New 
Schools Venture Fund, and the MacArthur Foundation. And then we 
put those practices that we found effective on those websites 
and are shared at those programs, and conferences that are 
attended by traditional and charter school teachers.
    We have had the privilege of being in a Teacher Incentive 
Fund Grant in Chicago that actually the--only two charter 
schools were part of. The rest were traditional Chicago public 
schools.
    And lastly this year, we are actually replicating a more 
traditional public school in--that is--was developed in New 
York called, Quest to Learn. And the MacArthur Foundation has 
given us a grant to replicate that as a charter school in 
Chicago.
    And part of the grant's requirement is that we use it as a 
lab that is opened to--primarily to traditional Chicago public 
school teachers, not just charter school teachers in our use of 
digital media in instruction.
    Mr. Miron. My experience looking at a number of states is 
that there is not often a lot of sharing, in part because there 
is competition. And, you know, the notion that competitors are 
going to share isn't always so easy.
    But also there is a lot of--sometimes I have gone to 
schools where they--you know, they are very concerned if 
somebody is visiting one of the other schools from the other 
side. They, you know, don't even park on the street because 
they don't want to be seen by one of their colleagues.
    So if there is communication, sometimes it is a little bit 
under the radar if there is cooperation and so forth.
    But when I look at the evidence that there isn't 
necessarily a lot of innovation in the charter schools that 
could be shared, what we see is a threshold often for 
innovation that is something being unique.
    And so if a school is bringing in--a charter school may 
call something--Montessori education, you know, innovative. In 
fact there is lots of sources around the world. We can find out 
about Montessori education.
    But it is seen as innovative because it isn't already in 
the community, so some of the things that they are bringing in 
and introducing as innovative aren't necessarily new ideas, but 
just things new--that may be new to the community.
    But one issue that we have about this with increasing 
growth with education management organizations now operating 
close to a third of the nation's charter schools, when we look 
at the contracts for these private companies, they often state 
that the work that the teachers do and the work of the charter 
schools is proprietary in nature.
    Even anything--the lesson plans that the teachers develop 
are proprietary in nature. So even if the public charter school 
board says, we want to share what teachers are developing, it 
may not be the case that the private company is going to allow 
that sharing because information, as the contract states, is 
proprietary.
    So that is a concern that we have with sharing of course 
when we have that private involvement.
    Mr. Holt. Thank you.
    And for Ms. Beyer, the time is expired. But you did have a 
chance to address this general question with Ms. Woolsey.
    Thank you.
    Chairman Hunter. Thank the gentleman.
    It is my understanding that Mr. Miller has one additional 
question for the witnesses.
    I--in order to get him to the airport, instead of having a 
second round, we are just going to have this last question and 
then closing comments.
    So, Mr. Miller is recognized----
    Mr. Miller. Thank you very much, Mr. Chairman. I appreciate 
you doing this.
    I--my question is and Dr. Miron, I--you can respond to 
this. But you just touched upon it.
    We can all argue back and forth about what state and 
federal regulations are doing to charter schools. But what is 
happening in terms of accountability and quality with the EMOs, 
the administrators of these programs that are controlling or 
supporting or providing services to an additional number--I 
mean, an increasing number of charter schools?
    Mr. Miron. The process of accountability is worse then now 
with the private management. In part because the definition of 
what is proprietary or not.
    I would just give you an example. We have sent out a 
sample--to a sample of EMO operator charter schools in the 
nation, 424. We have sent out requests last September for a 
copy of the contract between the public charter school board 
and the EMO, the private management company.
    And then in the spring after we got only a 2 percent 
response rate, we got--sent out formal 4-year request. And now 
we are getting up to about 20 to 20 percent response.
    But the--it is really fascinating the responses from many 
of the schools that they don't need to share this information 
because they are private.
    Or we get responses----
    Mr. Miller. I thought these were--these are managing public 
charters.
    Mr. Miron. They are legally public schools. But these are 
the range of responses we get----
    Mr. Miller. So how does the school board or maybe Ms. Rowe 
you want to comment.
    How does the school board or an authorizer give away that 
kind of authority?
    Ms. Rowe. Thank you, Mr. Miller. I would have liked the 
opportunity to address that question. And I think that speaks 
to the quality of the authorizer.
    Because certainly charter----
    Mr. Miller. That speaks for the quality of the----
    Ms. Rowe. But not----
    Mr. Miller [continuing]. Public--the right of the public to 
know if--you know, you would get this information--a theory if 
you went down and looked at the contract between a local school 
and a school board or the district.
    Ms. Rowe. That is correct. And I believe it is the 
responsibility of the authorizer to ensure that the schools 
that it sponsors are following the law.
    Mr. Miller. Mr. Miron, your testimony is that that--well, 
you don't know yet. Because you haven't--you----
    Mr. Miron. Well, one of the things--I mean--and not only is 
it convoluted now, especially with many times the facilities, 
the teaching force, other components of the school are 
privately owned and operated.
    So you still have a public board, but when we--like in 
Michigan, most of the facilities and equipment, many of it--
most of it belongs to the private companies----
    Mr. Miller. So you sort of contract it out.
    Mr. Miron. They contract it out. The board contracts it 
out.
    But one of the problems coming to your question on 
accountability, not only is it difficult because it is gone 
behind a private veil, but also because now the public--even if 
the public charter school board that is contracted with the 
management company is dependent on EMO to share information, to 
provide information.
    So it is not like--it is kind of like, you know, we are 
going to ask Coca Cola how their product is doing. And they are 
going to tell us it is great.
    Well, when the charter school board asks the management 
company how are we doing? How do we know--I mean there--we have 
a private interest there that has a contract to operate the 
school. But they are the ones because they are operating the 
school, that are also going to provide that information.
    So it complicates the notion of accountability when we are 
dependent on these private groups to report on the performance 
of these--of the school----
    Mr. Miller. How do you break through that, Ms. Rowe?
    Ms. Rowe. When we look at the charter school and their 
operations and their subject to open meeting law, we also in 
our contracts have recently added language and a paragraph that 
says our charter board members are officers, directors, or 
members, or partners of that corporation have a duty of care in 
the oversight of those schools.
    They need to take the ownership and the decision-making 
that they have the ability and the responsibility very 
seriously.
    Mr. Miller. What are you telling me? I don't understand 
what you are telling me.
    Ms. Rowe. In looking at who the charter holder is, the 
state or in our case the State Board for Charter Schools has a 
contract with an entity.
    And that entity has a responsibility to meet the 
requirements of the law and their charter contract in providing 
a quality academic program for its schools.
    Part of that is disclosure of public records and sharing 
information. And I am surprised that the level of the challenge 
in receiving the information. We don't generally find that in 
Arizona.
    Mr. Miller. So they don't have your--your testimony would 
be, they don't have the right to withhold the information that 
Mr. Miron is attesting to.
    And they can't have a contract that is inconsistent with 
the language that you just suggested?
    Ms. Rowe. I wouldn't believe so, no.
    Mr. Miller. Okay.
    Mr. Miron, any final comments before the light. You better 
be fast.
    Mr. Miron. I am--I mean obviously I have concerns about 
accountability part and its--and the dependency on these 
private managers.
    Because as many of the school boards act in good faith, but 
again when we have executive authority by a private group 
operating a whole school including selection of, you know, 
recruitment of students, hiring of staff, and so forth, it is 
very difficult for that public board to have access to that 
information.
    Because it has to be collected and reported by the 
management company itself.
    Mr. Miller. Thank you. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Hunter. Absolutely.
    I would like to thank again the witnesses for taking time 
to testify before our subcommittee today.
    And recognize Mr. Kildee for any closing remarks.
    Mr. Kildee. I am--this has been a very good hearing.
    I really appreciate it very much.
    One thing I think we might want to explore in the future is 
the--that propriety property element which towards the end 
began to emerge more and more that it is hiding behind the 
corporate veil.
    And maybe that is an area where the federal government in 
its involvement in the development of the schools might want to 
take an interest and see why we allow completely this 
proprietary property element to proceed or take precedence over 
anything else.
    And the private veil which I think gives me great concern.
    I appreciate, Dr. Miron, your bringing that up.
    Thank you.
    Thank you, Mr. Chairman.
    Chairman Hunter. Thank the gentleman.
    In closing, it seems like two things have come out of this.
    One, like anything there is no silver bullet. Some charter 
schools work great, some don't work great, right? And I guess 
the key for us is to try to find out or for the states to try 
to find out what works and what doesn't. And try to copycat 
those.
    Number two like in California, I think it is interesting 
the reason we had that charter schools--so the reason we have 
charter schools in the first place in California is because 
there is--the regular school system is broken.
    So instead of fixing it at the root core, we had to--we 
were kind of treating the symptoms, which is fine, because 
charter schools work in those cases. But in the end, I guess 
you have got to let parents choose where to go, what to do, and 
what works for their kids.
    And that is how education works. And that is how pretty 
much life works.
    If you can choose and you have a vested interest, you are 
going to do better than those that don't have a choice and 
don't have a--parents that don't have a vested interest.
    So with that, there being no further business, the 
subcommittee is adjourned.
    [Additional submissions of Mr. Kildee follow:]
    [The following report, ``Equal or Fair? A Study of Revenues 
and Expenditures in American Charter Schools,'' may be accessed 
at the following Internet address:]

        http://epicpolicy.org/publication/charter-school-finance

                                ------                                

    [The following report, ``Profiles of For-Profit Education 
Management Organizations, Twelfth Annual Report--2009-2010,'' 
may be accessed at the following Internet address:]

       http://www.wmich.edu/leadership/emo/docs/EMO-FP-09-10.pdf

                                ------                                

    [The following report, ``What Makes KIPP Work? A Study of 
Student Characteristics, Attrition, and School Finance,'' may 
be accessed at the following Internet address:]

        http://www.wmich.edu/leadership/emo/docs/KIPP_study.pdf

                                ------                                

    [The following report, ``Profiles of Nonprofit Education 
Management Organizations,'' may be accessed at the following 
Internet address:]

       http://www.wmich.edu/leadership/emo/docs/EMO-NP-09-10.pdf

                                ------                                

    [The statement of Ms. Hirono follows:]

    Prepared Statement of Hon. Mazie K. Hirono, a Representative in 
                   Congress From the State of Hawaii

    Thank you Mr. Chairman. I want to acknowledge the presence at this 
hearing of two of my constituents from Hawaii Island here in D.C. They 
are Megan Dehning, a teacher at Innovations Public Charter School, and 
Greg Learned, a teacher at Kona Pacific Charter School.
    Hawaii has 31 charter schools, including 24 in my district in rural 
Oahu and the Neighbor Islands. Last week the Honolulu Star-Advertiser 
ran a 3-part series on charter schools, and I'd like to enter these 8 
articles and the paper's editorial into the record.
    In Hawaii, charter schools serve nearly 9,000 students statewide. 
While this is nearly a 50 percent increase in 3 years, charter schools 
serve only 5% of public school students.
    Charter school students on average perform about the same as the 
state average in reading, but worse in math. A smaller percentage of 
charter schools made AYP in 2010 than district public schools.
    Charter schools face challenges accessing facilities and federal 
and state funding streams. Nationally, charter schools receive only 78% 
of traditional public schools' average per-pupil funding from federal, 
state, and local sources. I recently signed a letter to the House 
Appropriations Committee requesting $330 million in funding for the 
Charter Schools Program in Fiscal Year 2012, an increase over President 
Obama's budget request.
    It is clear that many charter schools provide innovative approaches 
to learning, including the 17 Native Hawaiian-focused charter schools. 
The Native Hawaiian Charter School Alliance (Na Lei Na'au'ao) serves 
over 1,500 students using traditional Hawaiian language and cultural 
instruction.
    A 2004 study by Kamehameha Schools found that at Native Hawaiian-
focused charter schools, Native Hawaiians are 74 percent less likely to 
be chronically absent, and have higher grade 10 reading and SAT scores.
    While many charter schools are doing well, the state and federal 
government have a civil rights obligation to hold all schools 
accountable for closing achievement gaps and helping students learn.
    Charter school oversight and governance is spread thinly across 31 
separate local charter school boards, the Charter School Review Panel, 
and the Charter School Administrative Office. The first two of these 
are staffed by part-time volunteers who may not have the needed 
expertise, training, or resources. State Auditor Marion Higa's audit of 
the entire charter school system due this summer should shed light on 
the challenges facing charter schools and how we can move forward to 
ensure that they are performing well.
    The state legislature recently passed S.B. 1174 by State Senate 
Education Committee Chair Jill Tokuda. The bill would:
    <bullet> Strengthen the Charter School Review Panel's oversight and 
ability to revoke existing charters' authorizations, subject to an 
appeals process;
    <bullet> Require the 31 local charter school boards to post member 
contact information, agendas, and minutes online; and
    <bullet> Create a legislative task force on charter school 
accountability to clarify responsibilities of the existing state 
Charter School Administrative Office; state Charter School Review 
Panel; and 31 local charter school boards. The new task force could 
recommend allowing additional chartering authority such as UH or 
Kamehameha Schools. A report is due before the 2012 legislative 
session.
    At the federal level, we can take similar steps to ensure 
accountability so that all charter schools are educating our students 
effectively.
    Thank you to today's witnesses for coming here from around the 
country to share their expertise operating, authorizing, and evaluating 
charter schools. I appreciate the opportunity to hear your testimony 
and ask questions.
                                 ______
                                 
    [Additional submissions of Ms. Hirono follow:]

          Experiments in education reap widely varying results

            By Susan Essoyan, Star Advertiser, May 22, 2011

    As the number of students in Hawaii's charter schools grows, so has 
concern about oversight of these diverse campuses that rely on public 
money but are exempt from many state regulations.
    Designed as laboratories for innovation in public education, 
charter schools now educate 9,000 children across the state, a nearly 
50 percent jump in the past three years. Many of the state's 31 charter 
schools are in rural areas, tucked largely out of sight and out of 
mind. Other than their devotees, few people know much about them. But 
that might soon change.
    The spotlight is shifting to these ``schools of choice'' that now 
educate about 5 percent of Hawaii's public school children under 
``charters,'' or contracts with the state. Sixteen years after Waialae 
Elementary became Hawaii's first charter school, the state auditor is 
conducting a performance audit of the charter school system, due out 
this summer.
    ``Given the kinds of problems we're starting to see, and the 
questions that were coming up, now that the schools have been in 
operation for a while, how accountable are they for their own 
performance and for their students' performance?'' asked state Auditor 
Marion Higa. ``With the increase in their enrollment, and the 
increasing pressure the schools were exerting for facilities money, I 
thought this might be a good time to take that up.''
    Charters were created as a means of reform in public education, 
with high hopes of developing new techniques to lift academic 
performance where regular schools had failed. While some charters have 
done so, charter schools as a whole appear to be doing no better than 
traditional public schools with similar populations, and by some 
measures are faring worse.
    Legislators and members of the Charter School Review Panel are 
sharpening their oversight. Rather than simply getting their charter, 
starting this fall charter schools must go through reauthorization 
every six years to ensure they are on track academically and 
financially. And for the first time, each charter school was required 
to submit an independent financial audit this year.
    ``Expectations for charter schools have changed over the past 
decade,'' said Ruth Tschumy, chairwoman of the review panel, which was 
formed in 2007 to take on oversight of charters from the Board of 
Education. ``In the early years, charter schools were used to operating 
in somewhat of a vacuum as they struggled to survive.
    ``Many charter schools are now 10 years old, and it's time for them 
to shine as quality schools with innovative educational programs and 
practices,'' she said. ``If there are a few schools where that isn't 
happening, then it's up to all of us in the community to help them 
achieve their potential.''
    Trying to assess the overall performance of charter schools is 
tricky. It's tough to generalize about campuses that vary so 
dramatically--from a tiny Kauai schoolhouse that educates 37 students 
in the Niihau dialect of Hawaiian to Waipahu-based Hawaii Technology 
Academy, the largest, whose 1,000 students do much of their work 
online.
    Still, as public schools they are subject to state and federal 
testing and reporting requirements, which allow for a snapshot of their 
academic performance and their student profile. According to the most 
recent data, charter school students perform on par or slightly better 
in reading than other public schools in Hawaii but do notably worse on 
math. Overall, charters serve fewer pupils with language barriers and 
other hurdles to learning.
    On the 2010 Hawaii State Assessment, 68 percent of charter school 
students and 67 percent of all public school students scored proficient 
in reading, a virtual tie. In math, however, public school students as 
a whole did better, with 49 percent proficient compared with 40 percent 
of charter students.
    A higher ratio of regular public schools also made ``adequate 
yearly progress,'' the federal benchmark for success. The figures were 
51 percent for all public schools, compared with just 39 percent for 
charters last year. Graduation rates were the same for both sets of 
schools, with 79 percent graduating on time.
    Some charter schools have succeeded in rescuing students who had 
stalled in regular public schools and were ready to give up. But as a 
group, charters appear to have an easier population to educate. There 
are more than twice as many children learning English in the overall 
public school population, at 10 percent of the student body, than in 
charter schools, where they make up just 4 percent. Regular public 
schools also serve more special-education students than do charters, as 
well as slightly more low-income students, according to state data.
    A national assessment by the Center for Research on Education 
Outcomes at Stanford University found that 17 percent of charter 
schools reported academic gains significantly better than traditional 
public schools over time, while 37 percent of charter schools did worse 
than their traditional school counterparts. The rest showed no 
significant difference. The study, released in 2009, covered more than 
70 percent of the nation's students in charter schools, with controls 
for student demographics, economic background and special education.
    Charter school advocates say their performance is remarkable 
considering the hurdles their campuses face, including a lack of money 
for facilities, shrinking funding on a per-pupil basis, and difficulty 
recruiting teachers reluctant to lose their seniority in the Department 
of Education. As charter enrollment has shot up and the economy 
contracted, state funding per pupil has slipped from a high of $8,596 
in the 2007-08 school year to just $5,560 this school year.
    ``Charter schools do operate at a significant disadvantage because 
we don't get support for facilities, in a place where leases, rents and 
mortgages are the large part of your budget,'' said Lynn Finnegan, 
executive director of the Hawaii Charter School Network. ``It could be 
upwards of 30 percent of operating costs for a charter school to 
operate. They are doing much more with a lot less.''
    While average test scores and student demographics offer a big-
picture image of charter schools, they obscure the individual portraits 
of each school, which vary widely.
    ``We are 31 unique schools,'' said Mark Christiano, executive 
director of Kihei Charter School, the only charter on Maui. ``It wasn't 
supposed to be a system. It was supposed to be independent local school 
boards, doing the best they can to innovate. Sometimes it's working 
really well and sometimes it's not.''
    His campus, with 529 students in kindergarten through 12th grade, 
has dramatically improved performance in math. Reading scores are high, 
at 77 percent proficient, while math scores have jumped steadily each 
year, reaching 50 percent proficient last year, up from 24 percent in 
2007.
    ``We still have quite a way to go,'' Christiano said. ``We really 
have focused on STEM education--science, technology, engineering and 
math. It's sort of a math-all-day-long approach. We try hard to 
integrate math into the science activities, having students use math in 
a way that's hopefully motivating and exciting for them.''
    Meanwhile, at Halau Ku Mana, a Hawaiian-focused charter school in 
Makiki Valley with 66 students in grades 6 through 12, math scores 
remained stuck near the bottom of the heap for the past few years. Just 
9 percent of students were proficient in 2010, the same as three years 
earlier. Its reading scores are much better, at 60 percent proficient. 
Many of its students face challenges: It has the highest percentage of 
special-education students of all the charters, and two-thirds of its 
students are economically disadvantaged.
    Executive Director Patti Cronin, who was hired last July, said the 
school realized its math scores were ``unacceptably low'' and has moved 
aggressively to boost performance this year. The staff began working 
intensively with students one on one, offering math camps outside of 
school. It uses a supplemental software program and emphasizes homework 
and a positive attitude.
    Two weeks ago the campus erupted in jubilation when results from 
the latest round of online testing showed a huge jump, to 40 percent of 
students proficient in math.
    ``It was a total effort from top to bottom,'' Cronin said, ``and we 
just have to keep that momentum going.''
    Over the past decade, charter schools in Hawaii have given parents 
more choice in public schooling, and have developed some attractive new 
approaches to education. The goal of the movement, advocates say, is to 
nurture the successful models and help spread their techniques to the 
broader population.
    ``We want great schools for every kid in Hawaii,'' said Christiano, 
Kihei Charter School's executive director. ``The question is how do we 
push these great models and get them to work for all kids? We need our 
good ones to happen more often.''
                                 ______
                                 

       Institution founded on choice produces strong test scores

            By Susan Essoyan, Star Advertiser, May 22, 2011

    KAILUA-KONA--Teenagers sit at a picnic table as their math teacher 
sketches out a navigation problem on a whiteboard propped near a 
plumeria tree, with the rumble of surf as his soundtrack.
    The spartan campus of West Hawaii Explorations Academy, a public 
charter school next to Kona Airport, lives up to its motto, ``No Child 
Left Indoors.'' The most substantial structure is a hollow-tile 
concrete pavilion workshop. Students work mostly in open-air structures 
with fabric roofs.
    Small sharks swim in a reef pool, and clown fish, opihi and other 
marine creatures inhabit various bubbling tanks scattered here and 
there. A couple of sixth-grade girls bend and twist the blades of their 
miniature windmill to see whether they can make it whirl faster, 
crouching by a garden of herbs and bananas coaxed from the barren lava.
    About 200 students in grades 6 through 12 trek to this campus daily 
for the chance to take charge of their education, working on projects 
they dream up themselves, learning as they pursue their own passions. 
They travel from as far as South Point and Honokaa.
    ``They come from a 100-mile radius,'' said Curtis Muraoka, co-
director of the school, which began as an off-campus program of 
Konawaena High School before becoming a charter in 2000. ``Obviously, 
the demand for programs like this is there.''
    The school is founded on bringing choice and control to young 
people, he said. And it seems to be working. Test scores are among the 
best of the state's high schools, with 84 percent proficient in reading 
and 48 percent proficient in math. But now WHEA, as it is known, has to 
pick up and move because of noise expected from a new runway and more 
military flights at Kona Airport.
    To stay alive, the school is launching a $10 million capital 
campaign to build new facilities on a quieter site, also on the grounds 
of the Natural Energy Laboratory of Hawaii. It has already signed a new 
lease.
    ``It is a tremendous undertaking,'' said Muraoka, his sunglasses 
pushed into his thick salt-and-pepper hair. ``We are hoping we can get 
a little state support, federal support and philanthropy. We're 
frugal--we're a good deal.''
    He sees the $10 million price tag as a bargain compared with the 
upward of $100 million that could be spent on a traditional high 
school. The state has been reluctant to provide facilities funding for 
charter schools, arguing that it doesn't have the money to duplicate 
infrastructure. But legislators just approved a $1.5 million grant in 
aid for the project.
    ``It was a win-win because we're improving state facilities,'' said 
a grateful Muraoka. ``My view is they should build schools like ours 
because it's a different way to build public education. Ultimately it 
does save money if you look at making smaller, more frugal campuses 
with less comprehensive infrastructure.''
    Virtually everything on WHEA's campus was donated or built by 
volunteers. Even the slabs of concrete in its gravel landscape are not 
uniform, because they were built in bits and pieces with leftovers 
donated by cement trucks finishing other jobs.
    The state's first charter high school doesn't have the trappings of 
most public high schools. There is no football team or marching band or 
even a cafeteria or gym. Because the ground water is close to the 
surface, students and staff rely on portable toilets. Along with 
upgraded restrooms, plans for the new campus include a play court and a 
food service area that can also serve as a teaching classroom for food 
science and culinary arts.
    Students say they are drawn by the small-school setting and the 
hands-on learning at the school, where they immerse themselves in 
subjects they care about. The academic standards they must meet are 
worked into that framework.
    ``The thing I like about WHEA is it grows with its students. It's 
not just a tunnel; it's something that moves and changes with you,'' 
said Kyra Boyl, 18. ``And I really like the fact that the teachers know 
me as a person, not just one of 150 students that they see for 45 
minutes every day.''
    Shellese Guieb, the school's office manager, said WHEA has worked 
beautifully for her son but would not fit her daughter, who thrives in 
her large public school four miles away, where she is active in student 
government, service clubs and various sports. ``I think if I brought 
her here, she would just shrivel up,'' she said.
    ``My son, he is now motivated, interested and taking responsibility 
for his learning, whereas before he was just kind of trudging through, 
totally not interested in his schoolwork,'' Guieb said. ``He has done a 
complete turnaround.''
    Muraoka said the campus is meant to offer something different, and 
attracts a large portion of students for whom traditional school hasn't 
worked out, as well as bright kids who want the challenge of more 
independent study. He sees WHEA's approach, which has attracted 
national interest, as a model that could be broadly applied.
    ``Every district should have programs like this,'' Muraoka said. 
``It shouldn't just be in science. It should be in performing arts. It 
should be in fine arts, in vocational technology. Every district should 
have these programs, like a wagon wheel of spokes with different 
emphases.''
                                 ______
                                 

            Once-struggling campus makes educational U-turn

            By Susan Essoyan, Star Advertiser, May 22, 2011

    KUALAPUU, Molokai--A Molokai native with a magnetic smile and a 
bold spirit, Principal Lydia Trinidad hasn't been afraid to lead her 
alma mater, Kualapuu School, onto new terrain, with dramatic results.
    ``Lydia doesn't let the unexplored scare her--she's smart about 
being daring,'' said parent Kalae Tangonan, an orange hibiscus tucked 
in her hair. ``She's definitely innovative, always open to new ideas.''
    The first big leap for this elementary school in the heart of 
Molokai was to switch to charter status in the summer of 2004, an 
effort to marshal the resources and flexibility needed to lift the 
performance of its economically disadvantaged population. Since then it 
has managed to steadily boost test scores, lengthen the school day by 
an hour and enrich the curriculum with an array of electives including 
daily PE. It even added a preschool.
    ``I love this school,'' said Tangonan, who has three children at 
Kualapuu, her youngest in the preschool class. ``They give us the 
ability to send our kids to Hawaiian immersion or English. That in 
itself is a gift. I like the fact that we are a conversion charter so 
we can chart our own course.''
    Tangonan made her comments as she headed toward the cafeteria for a 
recent after-school performance featuring hula, taiko, Chinese dance 
and tinikling, the Filipino national dance. Performing arts as well as 
Hawaiian studies are now a regular part of the school day at Kualapuu 
School, where 90 percent of students are part-Hawaiian and 76 percent 
qualify for subsidized lunch because of low incomes.
    ``Ho, you gotta come early for this,'' commented one beefy father, 
queuing up behind the overflow crowd peering through the cafeteria 
windows.
    When it became a charter, Kualapuu was facing ``restructuring,'' 
the toughest federal sanction for falling short of academic targets.
    Heavy focus on math and reading pushed up test scores to the point 
where the campus managed to get back in ``good standing,'' the top 
tier, three years after becoming a charter. Reading proficiency has 
continued to rise since then, to 58 percent proficient last year, up 
from 41 percent in 2007, while math proficiency nearly doubled to 60 
percent. But ``good standing'' wasn't good enough for Trinidad and the 
leadership team she has assembled, many of them strong women with local 
roots.
    Afraid that a fixation on math and reading were pushing out other 
worthy subjects, she took a team to Boston in 2009 to explore the idea 
of ``expanded learning time'' with the nonprofit organization MASS 20/
20. The Kualapuu community ultimately bought into it, despite some 
initial reluctance from teachers and even parents, who worried it might 
be too much for their kids.
    ``Even if you didn't want to do it--work longer hours--you knew it 
was the right thing to do,'' said teacher Ryan Link, who went to Boston 
to check it out. ``It was obvious. The data showed that it really 
worked.''
    The school day now runs from 7:45 a.m. to 2:45 p.m., an hour longer 
than last year. Kualapuu's teachers are putting in 10 percent more time 
on the job this year and receiving 10 percent more pay. They also get 
more time to work together and plan.
    Lunch was compressed to 30 minutes. The extra time goes toward more 
science and social studies, dedicated writing time and 30 minutes of PE 
daily, plus Hawaiian studies and performing arts. Electives are taught 
by certified teachers to ensure there is content along with the fun.
    ``PE is a core subject,'' said Trinidad, who has to break her 
stride on campus as small children reach out to hug her. ``The 
statistics are very strong about health and wellness.''
    Because the kids are engaged, the extra hour at the end of the day 
goes by quickly. ``I think it's better with more minutes in that we can 
learn more things,'' said sixth-grader Pono Kalipi. ``In performing 
arts I like being stage manager. PE every day lets me lose some 
calories. ``
    Staff members even make home visits to encourage parental 
participation. The school expects parents to follow up on homework 
assignments, send children to school on time and communicate with 
teachers. For a few parents that's too much to ask, said counselor 
Geneva Castro Lichtenstein, and they pull out. But others come from all 
over the island to attend Kualapuu.
    Trinidad, at 47 about the same age as the school itself, said she 
and her staff appreciate the freedom they have as a charter school to 
try new things. ``The benefit is a change in mentality, to let's try 
this, let's stretch the system to see if we can do this,'' she said.
    She estimates the school spends about $10,000 to educate each child 
each year, including bus service and utilities. Its state facility is 
rent free. Financial support comes from the state and federal 
governments, Kamehameha Schools and the Office of Hawaiian Affairs, 
among others.
    ``Whatever funds we get from these large important organizations, 
they are the difference, they are the tipping point,'' Trinidad said. 
``We're only set to do the extended learning time for about three 
years. I think it's important that we use these three years to build 
expectations and to say this is the standard. This is the expectation. 
This is what real education is.''
                                 ______
                                 

              Former private school finds some success in
                 transition to public Waldorf education

            By Susan Essoyan, Star Advertiser, May 23, 2011

    KEALAKEKUA, Hawaii--Nine-year-old Joshua Barreras-Float reaches up 
to show off his latest creation, a colorful crocheted cap that fits 
snugly on his head.
    ``I was the first one to know how to crochet,'' he announced 
proudly. ``You only had to do a special stitch and, going down, do a 
regular stitch. It's fun, and it gives exercise on your fingers.''
    For students at Kona Pacific Public Charter School, such handiwork 
is a key part of the curriculum. It is the first public school in the 
state to offer a Waldorf education, known for ``embracing the whole 
child, heart, hands and mind.''
    The trappings of modern, high-tech society are largely absent from 
this elementary school, on a secluded hillside above Kealakekua in 
South Kona. Instead, it has a fairy-tale feel to it, with brightly 
painted wooden cottages scattered over the grassy knoll.
    Once a private Waldorf school, it shut down in 2006 because not 
enough students could afford to attend. It was resuscitated in 2008 
with tax dollars as a public charter school, open to all, with no 
tuition charge. Enrollment shot up from 79 students in its first year 
to 157 this year, in kindergarten through sixth grade.
    ``The biggest difference in becoming a public school is the number 
of children we can serve,'' said Ipo Cain, a coffee farmer who is 
president of Kona Pacific's local school board. ``We've doubled the 
number of families. It was too hard to sustain a private school in a 
small agricultural community.''
    The charter school's financials are solid enough that it just 
received approval for a loan from the U.S. Department of Agriculture's 
Rural Development Program to expand its campus.
    Based on the ideas of an Austrian philosopher, Waldorf education is 
designed to match children's developmental stages, stoke imagination 
and curiosity, and help them explore all their talents, even ones they 
didn't know they had, like crocheting.
    ``One of the primary things I hope our children come away with is 
the joy of learning so the rest of their life, they will be really 
inspired and curious to seek out knowledge,'' said Usha Kotner, who 
left a career as a lawyer to direct the charter school. ``The capacity 
to learn is always there. It is just whether they want to or not.''
    There are no textbooks in the classrooms. Instead, the children 
make their own, with guidance from their teachers. The younger ones 
work with beeswax crayons, rather than the usual petroleum-based ones, 
in keeping with the school's commitment to using natural products as 
much as possible. The third-graders are the school's bakers, learning 
math with recipes that call for them to convert ingredients like ``18 
teaspoons'' to tablespoons and bake at 350 degrees for ``1,500 
seconds.''
    Kona Pacific is considered a high-poverty school, with 41 percent 
of students receiving subsidized lunch. Meals feature plenty of locally 
grown produce. The garden and composting operation are so effective 
that 150 students and 25 staff members generate just one can of garbage 
a day.
    ``There's a lot of similarities with Hawaiian traditional culture 
and Waldorf: teaching through stories, through doing, through 
respect,'' said teacher Katie Fransen. ``That's why it's a really 
natural blend.''
    Still, the shift to pubic school standards has not been totally 
smooth. Waldorf schools don't start formal academics until first grade, 
and their students might lag on state tests in the early years. Kona 
Pacific's scores have been below average. And Waldorf traditionally 
doesn't introduce typing until middle school, which posed a problem 
this spring when the school had to administer the Hawaii State 
Assessment, now entirely online. It had to borrow computers, and some 
students had never used a mouse before.
    ``We knew that testing was part of the bargain in becoming a public 
school, but not online testing,'' Kotner said. ``The kids get so 
stressed out. It's antithetical to what we're trying to do, which is 
set up a really nurturing environment.''
                                 ______
                                 

     State's fastest-growing charter maintains individual attention
                        for each of its students

            By Susan Essoyan, Star Advertiser, May 23, 2011

    The line began forming before dawn at a drab, mixed-use building 
overlooking Farrington Highway in Waipahu as parents vied for a chance 
to sign up their children for a slot at Hawaii Technology Academy.
    Just a small white sign tips off passers-by to the location of the 
fastest-growing charter school in the state, on the second floor above 
a kayak store and a shredded-foam operation.
    ``One family came at midnight, and by 5 a.m. we had 51 people 
waiting outside,'' said Jeff Piontek, an energetic New Yorker who heads 
the school, Hawaii's largest charter.''
    Launched in 2008, the public charter school has quadrupled its 
enrollment over two years, with 1,000 students at last count. On March 
1 it opened up 250 more slots for this fall, triggering that line of 
parents. The school can grow so quickly despite its limited space--
10,000 square feet--because its students work mostly at home. They come 
to the learning center on average twice a week for face-to-face 
classes, with additional time for electives.
    ``It's one size fits one; it's not one size fits all,'' said 
Piontek, formerly the state science specialist for Hawaii's public 
schools. ``If you're a fourth-grader and don't know fractions, we can 
teach you. If you don't know how to conjugate a verb, we teach you. 
Every child has a customized learning plan.''
    Students undergo a base-line assessment before they start school. 
Teachers review their performance every Monday and adjust each 
student's agenda for the coming week. The school uses a standardized 
online curriculum purchased from K12 Inc. Success depends on two 
factors: an engaged parent and a motivated child.
    ``Your parent or guardian is actually a teacher; they're 
responsible,'' said middle school teacher Tiffany Wynn. ``It's not 
sitting your child in front of a computer and saying, `Here you go, 
good luck!' ''
    Hawaii Tech's students score well, with 85 percent proficient in 
reading and 45 percent in math last year. But the school's close 
connection with K12 Inc. has raised a red flag with the state auditor's 
office, which is examining Hawaii's charter school system. The for-
profit firm gets 41 percent of the school's allotment of funds from the 
state. Under its contract, it also pays the principal. That means 
Piontek is a private employee, not a state employee like other public 
school principals.
    ``That is a huge issue with a lot of people,'' said Piontek, who 
makes $115,000 a year. ``They are afraid the curriculum company is 
running a public school. I would much rather be a school employee, and 
so would the local school board.''
    The board has been trying to renegotiate its K12 contract, which 
was signed before Piontek was hired and runs until 2014.
    HTA enrolls students from South Point on the Big Island to the 
North Shore of Kauai, some of them competitive surfers or performing 
artists who need a flexible schedule. The school's individualized 
approach has struck a chord, especially with military families and 
home-schoolers. Piontek pulls up some profile data with a few quick 
strokes on his laptop: 47 percent of students come from public schools; 
31 percent are military dependents; 20 percent were home-schooled; 12 
percent came from private schools; 2 percent from other charter 
schools.
    ``I could fill the whole school with military, but we want it to be 
a local school,'' Piontek said. ``Our plan caps it at a third.''
    Despite the building's bleak exterior, cheerful posters hand-
lettered by students decorate the central hallway, inviting them to 
join the environmental club or attend a PTSA meeting. An art teacher 
enlightens her pupils on the concept of proportion at one end of the 
hall, while biology students dissect rats in its science lab.
    ``I really like this school because it's challenging,'' said Joelle 
Lee, a soft-spoken seventh-grader with a flair for drawing. ``You can 
work at your own pace. If you get it down in most schools, you have to 
wait for everyone else. This one, you learn it once and you get ahead 
and go on to the next thing.''
                                 ______
                                 

                   Close ties color boards' decisions

            By Susan Essoyan, Star Advertiser, May 24, 2011

    Some of Hawaii's charter school boards are so closely entwined with 
their school's leadership that the relationships could limit their 
ability to exercise independent oversight, a critical component to 
ensuring success.
    Each volunteer board is responsible for governing the school, 
hiring the principal, setting policy and ensuring financial and 
academic viability, but a few might simply let the principal call the 
shots.
    Some recent cases that have raised concern:
    Official returns to job after serving jail term--Board members of 
Kula Aupuni Niihau a Kahelelani Aloha, a tiny bilingual school in 
Kekaha, Kauai, are related to the school's administrator and defer to 
her in fiscal matters, according to a recent independent financial 
audit.
    ``During our audit, we noted very minimal fiscal oversight by the 
Board of Directors and no Finance Committee,'' auditors concluded. 
``The fiscal operations and control are left to the Principal and the 
Accountant. The Local School Board currently does not have a member 
well versed in fiscal controls or financial statements.''
    Administrator Hedy Sullivan said that she and the board work 
closely together, and ``we're all related because we're all from 
Niihau,'' but she has no close relatives on the board. In response to 
the auditor's concerns, the board is seeking a new member who has an 
accounting background to help exert fiscal oversight.
    In 2005 the board made headlines when it kept Sullivan on the job 
as head of the school even after she had pleaded guilty to two counts 
of second-degree assault for tying up her 11-year-old son and beating 
him with a bat. Police found the boy with his hands tied behind his 
back, a black eye, bruises all over his body and rope marks around his 
neck.
    Sullivan lost custody of the child, whom she had adopted. She was 
later sentenced to a year in prison for the crime, and her husband 
filled in for her as administrator. Upon her release in 2006, she went 
back to her position at the school, and completed five years of 
probation last June.
    Sullivan said she makes sure any family enrolling a child is aware 
of her criminal background. She added that the board consulted with the 
school community before unanimously voting to retain her. ``I'm not 
making any excuses for what I did,'' Sullivan said.
    State education officials said they were powerless to intervene at 
the time because the local board was the ``autonomous governing body'' 
of the school. But the head of the Charter School Review Panel said she 
thinks it might be handled differently today.
    ``In this particular case, the Charter School Review Panel was not 
in existence, but had it been, I believe it might have seen the board's 
action as a possible safety issue for the school's children and taken 
some action,'' said Ruth Tschumy, panel chairwoman.
    Hoe family has teaching, board roles at Hakipuu--Hakipuu Learning 
Center in Kaneohe is a public school, but it is also a family venture, 
founded by Charlene and Calvin Hoe and their three sons in 2001. Today, 
Kala Hoe is chairman of the local school board, while his mother, 
Charlene, is a key administrator.
    Kala and his brother Kawai teach at Hakipuu along with a niece who 
is an educational assistant. Another brother, Liko, serves on the 
board, and Calvin is a full-time volunteer on the campus, which has 67 
students.
    A bill to prohibit a relative of the head of a charter school or an 
employee of that school from serving as chairman of its local school 
board was unanimously approved by the Senate Education Committee 
earlier this year, with support from Kamehameha Schools, Hookakoo 
Corp., the Charter School Administrative Office and the Charter School 
Review Panel. But it did not get a hearing in the Judiciary and Labor 
Committee, chaired by Sen. Clayton Hee, (D, Kahuku-Kaneohe) and died.
    Ipo Cain, head of the local school board at a Hawaii island charter 
school, said having relatives oversee each other's use of state school 
funds is inappropriate. ``They would have to recuse themselves too 
often to be effective leaders,'' Cain said. ``It has potential for 
conflict, and so you have to be careful. Why not just avoid it?''
    But Charlene Hoe, who at one time was director of the office of 
strategic planning for Kamehameha Schools, said fostering a sense of 
ohana is part of the school's mission. Her family members are qualified 
for their positions, and it is not a question of nepotism, she said.
    ``To me that's not the issue; the issue is getting good people on 
your board,'' Hoe said. ``We have one of the most active boards. They 
stay at the policy level.''
    Hawaii has no law specifically addressing nepotism, but the fair-
treatment law prohibits state employees from giving themselves or 
anyone else unwarranted benefits or preferential treatment. The 
conflict-of-interest law says state employees cannot take discretionary 
state action that affects their own financial interests or those of 
their spouse or dependent child.
    Thompson investigated on nepotism, fund use--Myron B. Thompson 
Academy, an online school in Kakaako, has been under scrutiny since 
December after former staff members complained publicly about nepotism 
and favor- itism at that school. The principal's sister runs the 
elementary school while holding down a full-time job as a flight 
attendant.
    The principal's three nephews are also on the payroll. One was the 
athletic director until it became public that the school has had no 
sports teams for two years. His title was recently changed to ``student 
support assistant.'' Critics claimed family members were held to 
different standards as far as attendance and teaching qualifications.
    An independent financial audit also raised questions about a 
``donation'' of $175,000 of the school's state funds to an affiliated 
nonprofit, noting there was no indication that the board had discussed 
or approved the unusual transaction. Until December the principal took 
minutes for the board's quarterly meetings, some conducted via 
conference call. Her notes were brief and often failed to indicate who 
attended or details of discussions and decisions.
    The Charter School Review Panel began investigating the situation, 
concerned that the school might not have followed fair hiring practices 
or rules that forbid state employees for working for private entities 
on state time. Last month it referred the matter to the Ethics 
Commission and the attorney general, saying it lacked adequate 
investigative tools such as subpoena power.
                                 ______
                                 

       Legislation seeks to shed light on operations and spending

            By Susan Essoyan, Star Advertiser, May 24, 2011

    The state Legislature took small steps this session to enhance 
oversight and public disclosure for charter schools, and lawmakers plan 
to work with the charter community on big-picture changes for the 
system.
    ``There's been so much flexibility given to our charter schools, we 
had to take a half-step back,'' said Sen. Jill Tokuda, majority whip 
and chairwoman of the Education Committee. ``Yes, charter schools were 
meant to have the freedom to explore different ways of teaching and 
learning, but at the same time we have to make sure they are using 
public funds properly.''
    ``We have great things going on in our charter schools, but like 
any other system we can always improve,'' she added.
    Charter schools are public schools that offer a free education but 
report to their own local school boards rather than the state Board of 
Education. The main piece of legislation that passed this session, SB 
1174, would help shed light on who is serving on those 31 boards and 
what they are doing by requiring online disclosure.
    Legislators--not to mention the public--have sometimes had trouble 
getting such data from the Charter School Administrative Office because 
the schools didn't keep it up to date.
    ``That is a major concern,'' Tokuda said. ``That's like saying 
we're really not sure who's on the Board of Education.''
    The bill requires agendas, minutes of meetings, names and contacts 
for local school board members to all be posted on a timely basis on 
the website of the charter school office.
    In response to concern that a few charter schools have made a habit 
of ``hiring the entire family,'' Tokuda said, the bill also requires 
local school boards to develop policies ``consistent with ethical 
standards of conduct.''
    Looking ahead, the bill creates a governance and accountability 
task force, something that the charter officials sought. The task force 
will identify oversight and monitoring responsibilities for the panel, 
the charter school administrative office and the local school boards, 
and develop a process for enforcement. Governance for charter schools 
had been developed piecemeal, and the law is ambiguous as to the roles 
of the various entities.
    Charter schools were created to do things differently, to try new 
ways to educate students, free of regulations that can hamper 
creativity. They are supposed to offer a nimble approach, rather than 
the bureaucracy that can bog down a regular public school. Some 
charters object to what they see as ``micromanaging'' by the review 
panel.
    ``The local school board by law is the `autonomous governing body' 
for the charter schools,'' said John Thatcher, principal of Connections 
Public Charter School in Hilo. ``If you've got another body that's 
trying to impose their rules and regulations, that makes life difficult 
and really goes against the spirit of why charter schools were 
formed.''
    The charter school office has churned through five executive 
directors since it was formed in 2004, and a search is under way for a 
new one. Part of the problem is its sometimes conflicting roles: 
advocating for and supporting charter schools while also doling out 
funds and holding them to reporting and other requirements.
    The Charter School Review Panel, too, has struggled to keep up with 
its workload. It is made up of 12 volunteers, who attend frequent 
meetings that can interfere with paying jobs. They must monitor 31 
charters, conduct special evaluations, review regular reports from each 
school and assess all new applicants for charters.
    ``Most panel members have full-time jobs,'' said Ruth Tschumy, 
panel chairwoman. ``The work of the panel is unsustainable as we get 
more schools. I don't think the panel members can keep functioning the 
way we have been.''
    Although it isn't mentioned in the bill, the task force on 
governance could consider whether it makes sense to establish another 
chartering authority, such as the University of Hawaii, to lighten the 
load.
    Ironically, charter schools are in some ways victims of their own 
success. As more charters open, they compete with each other for scarce 
state dollars. Alvin Parker, who headed the Charter School Review Panel 
when it approved Hawaii's three newest startup schools in 2008, said 
some charter leaders objected because it meant less money for their 
campuses.
    ``I got a lot of flak for that,'' said Parker, a principal whose 
own charter school stood to lose money because of the vote. ``It would 
have been real easy for me to deny the expansion of charter schools, 
but that wouldn't have been ethical.''
    Other would-be charters are waiting in the wings, vying for more 
than 40 open slots for conversions and startups. The panel has been 
wary of approving any application without a solid financial plan and a 
high-quality curriculum that offers something different from what's 
already available. One new applicant was turned down this month, and 
two others are scheduled for a vote on Thursday.
    The Legislature just approved $5,867 in per-pupil funds for the 
coming school year, with $228 per child for facilities. The forecast 
for the following year calls for a smaller per-pupil amount as 
enrollment is expected to grow.
    Charter schools had hoped to get needs-based facility funding, but 
instead the legislation calls for the charter office to develop a 
formula for such requests. The state has said it cannot afford to pay 
for two parallel sets of school infrastructure, one for regular schools 
and one for charters, especially since some are quite close to existing 
campuses.
    ``When the charter school law was first passed, part of the deal 
was they would not get facilities,'' said Rep. Roy Takumi, House 
Education chairman. ``They realized that would be the deal breaker. At 
the time, the charter community thought there would be private-public 
partnerships, philanthropists. It didn't take very long for the charter 
schools to come and say, `We need facilities, and it's not fair that 
the regular schools have it and we don't.' ''
    Takumi noted that the charter system is evolving and so are its 
needs, and there is a growing recognition that some schools need help 
with facilities infrastructure.
    ``I don't think it's anybody's intention to shortchange charter 
school kids,'' said Curtis Muraoka, co-director of West Hawaii 
Explorations Academy in Kona. ``It does take an act of will to examine 
things and say, `Now we're going to be fair.' ''
                                 ______
                                 

             With stable teaching staff and financial aid,
              Waianae school is model for student success

            By Susan Essoyan, Star Advertiser, May 24, 2011

    Moana Medeiros was taken aback when she and other eager teachers 
went to check out the site of a new charter school in Waianae and 
discovered it was to be housed in a former chicken coop.
    ``It had a dilapidated corrugated roof with no walls, just a bare 
cement foundation,'' Medeiros recalled. ``We looked at each other and 
said, what did we get ourselves into? Just as we were about to leave, 
along comes Mr. Parker, saying, `Don't leave, let me tell you all about 
it!' ''
    Alvin Parker, principal of Ka Waihona o ka Naauao, proved 
persuasive. Today Medeiros is elementary vice principal for the school, 
which quickly outgrew its humble origins and is now quartered at a 
meticulously kept traditional public school campus in Nanakuli.
    Its student body has mushroomed from 68 in 2002 when it opened to 
571 in kindergarten through eighth grade. The vast majority of its 
students are of Hawaiian descent and so are their teachers, largely 
recruited from the local community.
    Teacher turnover has long been an issue at public schools on the 
Waianae Coast, but not at Ka Waihona. All but two of its 41 teachers 
have been on staff for more than five years, and most have master's 
degrees.
    ``The big reason people said the quality of education was not being 
met on the Waianae Coast is that novice teachers would come, put in a 
couple years and leave,'' said Parker, whose master's degree project 
was on how to build a sustainable school in the area. ``We've been able 
to overcome that.''
    The school consciously chooses teachers from the region because 
they are more likely to stay and the students readily relate to them. 
Ka Waihona also gives its teachers and students a rare level of 
support: every classroom has an educational assistant as well as a 
teacher, and class size averages just 22 students.
    ``A lot of those factors are essential to helping these students 
who come from these socioeconomic backgrounds have a fighting chance to 
compete,'' said sixth-grade teacher Richard ``Kado'' Nahoopii, who grew 
up in Waianae and says he went to college only because a devoted high 
school teacher put up the money for his first semester.
    Ka Waihona's staffing level is possible because of funding the 
charter school receives from Kamehameha Schools. The educational trust 
also provides a steady supply of staff. Twenty members of Ka Waihona's 
faculty are Kamehameha Schools graduates, including Parker and his 
daughter, Keolani Alejado. A licensed teacher with a master's in 
education, Alejado teaches reading to struggling students and also runs 
the free afterschool tutoring program, where mentors from Nanakuli High 
work with 175 Ka Waihona students.
    The school is on firm financial footing, having recently signed a 
long-term lease with the Department of Hawaiian Home Lands for the 
oceanfront property, previously home to Nanaikapono Elementary. 
Parker's wife, Renette, is the business manager and registrar, hired 
with approval of the local school board after private sector jobs in 
accounting and human resources. A recent independent financial audit 
found no deficiencies in internal control.
    The newest member of the faculty is math resource teacher Dan 
Kitashima, a veteran educator recruited from Pearl Highlands 
Intermediate School in 2008. With his encouragement, the school adopted 
Singapore Math in the fall of 2009, and math proficiency jumped from 27 
percent of students to 37 percent over the course of that school year, 
helping the school make ``adequate yearly progress.'' Fifty-eight 
percent of students are proficient in reading. More than half the 
children are economically disadvantaged.
    Singapore Math, based on the curriculum that has helped propel 
students in that island nation to the top of international tests, shows 
students the concrete and pictorial before going abstract, and teaches 
number ``bonding'' techniques that last a lifetime.
    ``It not only teaches how the math works but why it works,'' said 
Kitashima, who says he was ready to retire but coming to Ka Waihona has 
revitalized him. ``And because it's so visual, it's great for all 
different kinds of students. The joy, the change in attitude that the 
kids have experienced, is the greatest.''
                                 ______
                                 
    [Whereupon, at 2:17 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
